<html>
<title> - THE METROPOLITAN WASHINGTON AIRPORTS AUTHORITY--THE IMPACT OF THE SEPTEMBER 11TH TERRORIST ATTACKS ON THE SECURITY AND OPERATION OF AIRPORTS SERVING THE NATION'S CAPITAL</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





   THE METROPOLITAN WASHINGTON AIRPORTS AUTHORITY--THE IMPACT OF THE 
   SEPTEMBER 11TH TERRORIST ATTACKS ON THE SECURITY AND OPERATION OF 
                 AIRPORTS SERVING THE NATION'S CAPITAL

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2002

                               __________

                           Serial No. 107-174

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

85-722              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
CHRISTOPHER SHAYS, Connecticut       DIANE E. WATSON, California
                                     STEPHEN F. LYNCH, Massachusetts

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
               Matthew Batt, Legislative Assistant/Clerk
                      Shalley Kim, Staff Assistant
                      Jon Bouker, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 8, 2002......................................     1
Statement of:
    Favola, Barbara, chair, COG Committee on Noise Abatement at 
      National and Dulles Airports; David Gries, chair, Palisades 
      Citizens Association Committee on Aircraft Noise; and 
      Donald W. MacGlashan, board member of CAAN, Inc............    87
    Van de Water, Read, Assistant Secretary for Aviation and 
      International Affairs, U.S. Department of Transportation; 
      Steve Brown, Associate Administrator for Air Traffic 
      Services, Federal Aviation Administration; James A. 
      Wilding, president and CEO, Metropolitan Washington 
      Airports Authority; Beth Haskins, CEO, Signature Flight 
      Support; and John W. Olcott, president, National Business 
      Aviation Association, Inc..................................    17
Letters, statements, etc., submitted for the record by:
    Brown, Steve, Associate Administrator for Air Traffic 
      Services, Federal Aviation Administration, prepared 
      statement of...............................................    27
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................   118
    Favola, Barbara, chair, COG Committee on Noise Abatement at 
      National and Dulles Airports, prepared statement of........    90
    Gries, David, chair, Palisades Citizens Association Committee 
      on Aircraft Noise, prepared statement of...................    99
    Haskins, Beth, CEO, Signature Flight Support, prepared 
      statement of...............................................    46
    MacGlashan, Donald W., board member of CAAN, Inc., prepared 
      statement of...............................................   106
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    12
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     4
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     8
    Olcott, John W., president, National Business Aviation 
      Association, Inc., prepared statement of...................    53
    Van de Water, Read, Assistant Secretary for Aviation and 
      International Affairs, U.S. Department of Transportation, 
      prepared statement of......................................    20
    Wilding, James A., president and CEO, Metropolitan Washington 
      Airports Authority, prepared statement of..................    35

 
   THE METROPOLITAN WASHINGTON AIRPORTS AUTHORITY--THE IMPACT OF THE 
   SEPTEMBER 11TH TERRORIST ATTACKS ON THE SECURITY AND OPERATION OF 
                 AIRPORTS SERVING THE NATION'S CAPITAL

                              ----------                              


                         WEDNESDAY, MAY 8, 2002

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella (chairwoman of the subcommittee) presiding.
    Present: Representatives Morella, Norton, Platts, Tom Davis 
of Virginia, Shays, Moran, and Watson.
    Staff present: Russell Smith, staff director; Heea 
Vazirani-Fales, counsel; Matthew Batt, legislative assistant/
clerk; Robert White, communications director; Shalley Kim, 
staff assistant; Jon Bouker, minority counsel; and Jean Gosa, 
minority assistant clerk.
    Mrs. Morella. Good morning. I'm going to call the 
Subcommittee of the District of Columbia to order for the 
purpose of convening our hearing on the Metropolitan Washington 
Airports Authority, the impact of September 11th terrorist 
attacks on the security and operation of airports serving our 
Nation's Capital.
    I want to acknowledge our ranking member, Congresswoman 
Eleanor Holmes Norton, and joining us this morning is our 
member from the 8th District of Virginia, Jim Moran, who has 
had an interest throughout this whole journey in what was 
happening at our airports.
    I want to begin by once again publicly thanking President 
Bush and Transportation Secretary Norman Mineta for their work 
in reopening Ronald Reagan Washington National Airport after 
September 11th and now placing it back on the path to full 
capacity. You cannot overestimate the importance of Reagan 
National and our other two airports, Dulles and BWI, to the 
regional economy, an economy that is largely driven by tourism 
and business travel.
    Getting National back to full operation is another piece of 
good news, both financial and symbolic, as the region continues 
to recover from the events of the fall. It has been a long 
road--maybe I should say a long flight path--to get back.
    Reagan National faced an unprecedented 4-week shutdown, the 
mandating of strict new security measures on all flights, and a 
gradual phase-in of service. This situation has served to 
highlight how important National Airport is to this region.
    Eight months ago some doubted whether the airport would 
ever open again. Today, as we move ever closer to full 
capacity, those fears are fortunately long gone. Reagan 
National is here to stay.
    Since October 4th, when planes resumed flying in and out of 
National, many residents of this region, including many in 
Montgomery County, Maryland, had to cope with new flight 
patterns. As part of the post-September 11th protocols, 
aircraft flying to or from National stopped following the 
Potomac River and began taking a straight-line course, which 
meant they flew over neighborhoods. I know Jim Wilding and the 
Airports Authority were relieved when Secretary Norm Mineta 
gave National permission to return to its usual flight 
patterns, but I know they weren't any more relieved than the 
folks whose walls rumbled and windows shook every time a plane 
flew overhead.
    Unfortunately, I understand that not all the previous noise 
abatement procedures have been put back in place. Actually, 
there's conflicting information in this regard. Airports and 
the surrounding area are naturally going to be noisy places. 
There's just no way to completely silence a 200-ton aircraft 
powered by 30-ton engines, but we can and we must take 
reasonable steps to reduce that noise wherever possible, and we 
won't be back to normal until all the previous noise abatement 
strategies are being put to use.
    One of these measures has been the practice of pilots 
throttling back or decelerating right after takeoff and 
maintaining that reduced power for the first 10 miles of the 
trip. This greatly helps reduce noise to inner-beltway 
neighborhoods, and we will be asking our FAA representative if 
the Agency is, indeed, no longer enforcing this measure on 
flights heading to the north, as appears to be the case. And, 
if not, why not?
    I'd also like to hear from Mr. Wilding and others if there 
are any other logical steps that we might take that would 
reduce noise.
    Similarly, we will be touching on the new security 
structure now in place at National, Dulles, and other airports 
around the country and we'll get an assessment of the security 
features that are unique to National; namely, the required 
presence of air marshals on every flight at the airport, the 
extra security screening, and a requirement that passengers 
remain seated during the first and last 30 minutes of all 
flights.
    Finally, we'll also be discussing the situation concerning 
general aviation and privately owned planes. They are still 
banned from use at Reagan National and three small airports in 
Prince George's County, Maryland. College Park Airport; Potomac 
Airfield; and Washington Executive Airport, Hyde Field, are 
open only to pilots whose planes are based there, which seems 
to be an untenable position for these airports. How can they 
possibly survive under those restrictions?
    It is my understanding that the U.S. Secret Service, Office 
of Homeland Security, and perhaps other agencies are involved 
in determining when or if general aviation flights return to 
National. I'll
be asking the Government witnesses if they can shed some light 
on this situation, including telling us what criteria will be 
used to determine when it is safe to resume full operations at 
these airports also.
    [The prepared statement of Hon. Constance A. Morella 
follows:]

[GRAPHIC] [TIFF OMITTED] T5722.001

[GRAPHIC] [TIFF OMITTED] T5722.002

    Mrs. Morella. I look forward to hearing from our witnesses. 
I appreciate their being here.
    I am now pleased to recognize our ranking member, 
Congresswoman Eleanor Holmes Norton, for her opening comments.
    Ms. Norton. Thank you very much, Madam Chair. I want to 
thank our chair, Representative Connie Morella, for holding 
this hearing which I requested a few months ago. I believe that 
the announcement of the chair and the subcommittee that there 
would be a hearing on Reagan National Airport did much to speed 
the airport to return close to normal today; however, there are 
still important outstanding issues and the public is anxious to 
know the exact status of the airport, what normalcy means at 
Reagan National, whether it has been reached, and what, if 
anything, is still to be accomplished.
    I want to begin by thanking Secretary Norm Mineta, who 
struggled to get Reagan National back to service levels that 
regional residents, the regional economy, and people who are 
around this country and the world who travel here have a right 
to expect.
    After September 11th there was considerable concern when 
other airports opened almost immediately, including Dulles, 
from which one of the hijacked planes was launched. National, 
alone, was placed on a phased-in schedule until April 15th, and 
even then the pre-September 11th schedule was not achieved. 
However, scheduling delays have not been the only issues. 
Perhaps the three most important remaining issues may be 
summarized as: noise, general or private aviation, and always, 
of course, security.
    First, there has been a lot of justifiable noise about 
noise, if I may so characterize such a serious issue and one 
that has taxed the patience and disturbed the peace of 
thousands of Washingtonians and residents of Maryland and 
Virginia. We will hear what the effects have been and whether 
they continue or have been abated from residents of the 
Palisades, a beautiful neighborhood that has been especially 
hard hit by excessive noise. I appreciate that these witnesses 
have come forward to provide the subcommittee with a first-hand 
account.
    Private or general aviation is the last and most serious 
victim of September 11th in this region. General aviation at 
National Airport remains exactly as September 11th left it--
completely shut down. This region contains both the major part 
of Federal establishment and an economy that ranks near the top 
in output in our country. Elimination of general aviation 
altogether therefore has been far more than an inconvenience. 
The 8-month elimination of general aviation that is important 
to both Government and the private sector here has been a 
significant drag on the regional economy. Today we will learn 
the reasons for the long and continuing shutdown and what can 
be done to return general aviation to National, and, of course, 
the economic effects on the region.
    Finally, the subcommittee needs to be brought up to date 
concerning how safe or secure National Airport really is, how 
far we have to go, and the economic effects.
    Again, I appreciate that the chair has called this hearing 
on our airports to respond to the great interest and continuing 
concern of residents and businesses in this region.
    May I also express my appreciation in advance to all of 
today's witnesses for your time in preparing testimony and for 
participating in this hearing.
    Mrs. Morella. Thank you, Congresswoman Norton.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T5722.003

[GRAPHIC] [TIFF OMITTED] T5722.004

    Mrs. Morella. We have a guest, as I said. Mr. Moran, I 
wonder if you would like to make any opening comments. You are 
welcome to.
    Mr. Moran. Thank you very much, Chairwoman Morella. As you 
know, National Airport is in my District. I've got one or two 
constituents who have some concern with many aspects of 
National Airport, particularly the noise and disruption it 
causes their residential communities. But first I want to thank 
all the folks that were involved in restoring the operations at 
National, and particularly Jim Wilding, as the head of the 
Metropolitan Washington Aviation Authority, and the folks at 
the Federal level. And I have to say the local government was 
very constructive, as well. We're going to hear from Barbara 
Favola representing Arlington County shortly.
    But let me focus. As is always the case, we have it with 
our constituents, as well, so I'll do the same thing. It is 
just the human condition that when things are improved you 
focus on what you haven't yet achieved or, you know, whatever 
the problems are, but bear in mind we understand the larger 
context--that we're back on our feet, the economy is 
rebounding, and a lot of good has been accomplished in the last 
several months, and certainly the announcement of April 24th 
was music to our ears, but we still have some problems.
    Now, in terms of general aviation it is an economic 
problem, and I think it is a serious one. I would like to have 
some discussion, Madam Chairwoman--I know you share this 
interest with Ms. Norton. As long as we have grounded general 
aviation, a lot of the corporations, the executives in this 
area that rely upon being able to use their own jets are 
discouraged from locating or staying here. We've actually put a 
fair number of people out of business.
    Signature Airlines is going to be able to sustain 
operations around the country because it is so large, but they 
have a subsidiary that I expect is going to go out of business, 
and that's very unfortunate.
    I think that the long-term ramifications of not having 
general aviation are significant, and I would hope that we will 
be able to fix that situation. We really ought to have general 
aviation. We ought to be able to use the runways 15 through 33. 
I understand they align with the Pentagon, but we'd like to 
hear why it is not possible to get general aviation up and 
running.
    The noise curfew from 10 p.m. to 7 a.m. is obviously very 
important to our constituents. The curfew, itself, is certainly 
an issue, but the most important thing is the noise, and that's 
what prompts the curfew, itself. It's not a matter of the 
planes, themselves; it's the disruption to people during hours 
when they would normally be able to sleep peacefully.
    I still have problems, and I'd like to get as much 
commitment as we can with regard to this perimeter rule. I know 
the Congress busted the perimeter rule, and our friend from 
Arizona was instrumental in doing that, but National Airport 
was never intended to be an airport to accommodate 
intercontinental flights. I trust that all of you share that 
feeling. If you don't, I'd like to hear about it, because 
Dulles is the complementary airport that was built to handle 
transcontinental and intercontinental flights. National 
supplemented that with the shorter haul and the regional 
flights, so I don't think we should be going beyond the 1,250-
mile perimeter rule.
    I know we are going to talk about the slot rule and the 
flight path, but there are still--the point is that there are 
still some issues that we need to resolve. I know we put the 
noise situation on hold and that was understandable, but it 
doesn't mean that it is dismissed. I would hope we can go back 
to making some progress on that.
    The TRACON traffic control system is very beneficial. It's 
very encouraging what they've done. And it will divert some of 
the planes from Andrews Air Force Base that have been going 
over residential areas, so TRACON is particularly important 
because it looks at the entire region.
    The one other thing I'd like some discussion--I don't know 
if anybody is prepared to mention it, but the military aircraft 
flying over, that has been a problem at night, and so if 
anybody would care to address that I'd appreciate it.
    I see my time is up. It is even flashing now, so I suspect 
that means I've exhausted my time.
    I'm anxious to hear from the witnesses.
    Thank you, Madam Chairwoman.
    Mrs. Morella. Thank you, Mr. Moran.
    [The prepared statement of Hon. James P. Moran follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.005
    
    [GRAPHIC] [TIFF OMITTED] T5722.006
    
    [GRAPHIC] [TIFF OMITTED] T5722.007
    
    [GRAPHIC] [TIFF OMITTED] T5722.008
    
    [GRAPHIC] [TIFF OMITTED] T5722.009
    
    Mrs. Morella. I am now going to ask our distinguished first 
panel if they would stand and raise their right hand so we can 
administer the oath, which is tradition for the subcommittees 
and the full committee.
    [Witnesses sworn.]
    Mrs. Morella. Everybody has answered in the affirmative. 
The record shall so demonstrate.
    Now I will introduce the witnesses to you and then ask you 
each if you would try to confine your comments to within 5 
minutes. We do have your comments in the totality and they will 
be in the record as such.
    Read Van de Water is the Assistant Secretary for Aviation 
and International Affairs at the U.S. Department of 
Transportation; Steven Brown is the associate administrator for 
Air Traffic Services at the Federal Aviation Administration; 
James Wilding is president and CEO of the Metropolitan 
Washington Airports Authority; Elizabeth Haskins is the CEO of 
Signature Flight Support; and John Olcott is the president of 
the National Business Aviation Association, Incorporated.
    We are delighted to have you all here. We will start off 
with you, Ms. Van de Water.

   STATEMENTS OF READ VAN DE WATER, ASSISTANT SECRETARY FOR 
    AVIATION AND INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF 
 TRANSPORTATION; STEVE BROWN, ASSOCIATE ADMINISTRATOR FOR AIR 
  TRAFFIC SERVICES, FEDERAL AVIATION ADMINISTRATION; JAMES A. 
 WILDING, PRESIDENT AND CEO, METROPOLITAN WASHINGTON AIRPORTS 
  AUTHORITY; BETH HASKINS, CEO, SIGNATURE FLIGHT SUPPORT; AND 
     JOHN W. OLCOTT, PRESIDENT, NATIONAL BUSINESS AVIATION 
                       ASSOCIATION, INC.

    Ms. Van de Water. Madam Chairwoman, Ms. Norton, Mr. Moran, 
thank you for inviting me to testify today on the issue of the 
closure of Ronald Reagan Washington National Airport to general 
aviation and charter airlines following the terrorist attacks 
of September 11th. I am pleased to testify before you today on 
behalf of Secretary of Transportation Norm Mineta and Under 
Secretary of Security, John Magaw.
    As Secretary Mineta has said publicly many times, Reagan 
National Airport is an important symbol of the enduring 
strength of our Nation. Reagan National, or DCA, as we often 
call it, also serves as a gateway to the Nation's capital and 
is an important contributor to the Washington Metropolitan 
area's economy.
    The Department of Transportation takes full ownership for 
the responsibility of returning Reagan National to its prior 
capacity, both commercial and general aviation. We have 
coordinated and strategized within the Federal Government since 
September to achieve that goal.
    As many of you have stated, following the terrorist attacks 
of September 11th DCA was closed to all air traffic. In early 
October, Secretary Mineta allowed for the phased reopening of 
DCA to commercial flight operations. As a result of the 
development of successful security measures for commercial 
airline flights, Secretary Mineta recently, just a few weeks 
ago, authorized the full restoration of scheduled commercial 
flight operations in and out of DCA. This was a step-by-step 
process. As each phase operated successfully, the comfort level 
and the security procedures established increased, thus 
allowing more service.
    I'd like to note, Mrs. Morella and Ms. Norton, you both 
stated that folks wondered if DCA would ever open again to 
traffic. I can say, working for Secretary Mineta, that 
Secretary Mineta never doubted that. It has been a priority of 
his since September.
    But the reopening of flight operations at DCA has not yet 
been extended to general aviation, or ``GA,'' as we call it, 
and charter airlines. By GA and charter airlines, I mean 
private aircraft owner and operators, air taxi and on-demand 
operators, including public and private charters, as well as 
helicopter operations and corporate aircraft.
    The decision to keep general aviation and charter flight 
operations out of DCA has been based on a number of critical 
factors. These include the grave concerns over the protection 
of key assets and critical infrastructure in the Washington 
metropolitan area and the absolute necessity to prevent the use 
of an aircraft, regardless of its size, as a weapon of mass 
destruction.
    I cannot overstate how seriously we take those concerns in 
the administration. I know you share that concern. But let me 
tell you where we are today, because we have made a tremendous 
amount of progress.
    We have met with various Federal agencies and users of 
general aviation to determine the best and quickest way to 
reopen the airport to GA aircraft operations. We believe we are 
very close to making an announcement that will bring this 
matter to a close shortly. In fact, we hope to reach a 
conclusion on the key policy decisions by the end of May, just 
several weeks away.
    The procedures we expect to put in place will fall into 
certain categories. First would be the vetting and 
certification of flight deck crew members; second, advance 
clearance of passenger manifests by the TSA, or the 
Transportation Security Administration; screening of passengers 
and accessible property on the aircraft; securing and physical 
inspection of aircraft; and compliance with the DCA air traffic 
control special flight procedures that commercial airlines also 
follow flying in and out of the airport.
    In order to expedite the process of reviving general 
aviation operations at DCA, we will likely issue an interim 
final rule shortly that will allow the immediate commencement 
of operations. Comments will then be allowed on the rule's 
provisions and we can consider the comments and decide if the 
procedures need to be changed, but that way the restoration of 
service is not held up pending the final decision of the rule.
    We at the DOT are committed to working hard and making this 
happen in a timely way. As part of its civil aviation security 
responsibilities, the TSA will stringently monitor compliance 
with these procedures. The failure to comply with the approved 
security measures will result in serious enforcement action 
against the GA or charter airline operator and/or pilot.
    In summary, Madam Chairwoman, the DOT is committed to 
putting in place comprehensive security measures that will 
permit the reopening of Reagan National to general aviation and 
charter airline operations in a timely manner.
    This concludes my prepared statement. I would be happy to 
answer any questions when the panel is done.
    Mrs. Morella. Thank you very much, Ms. Van de Water. we 
appreciate that and we will be getting back to you when we get 
into the questioning.
    [The prepared statement of Ms. Van de Water follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.010
    
    [GRAPHIC] [TIFF OMITTED] T5722.011
    
    [GRAPHIC] [TIFF OMITTED] T5722.012
    
    [GRAPHIC] [TIFF OMITTED] T5722.013
    
    Mrs. Morella. I'm now pleased to recognize Steven Brown. 
Thank you, Mr. Brown.
    Mr. Brown. Good morning, Chairwoman Morella and 
Representatives Norton and Moran. I've looked forward to 
testifying on the issue of noise at Washington metropolitan 
airports. Thank you for inviting me to the hearing.
    As the associate administrator for air traffic services, I 
am responsible for managing the world's largest, most complex, 
and safest air traffic control system. In addition to my 
official responsibilities, I am also a pilot who flies in and 
out of the local airports regularly, and I happen to live near 
Rosslyn, adjacent to National Airport.
    One of the primary goals that we have at the agency is to 
enhance the efficiency while maintaining the highest possible 
standards of safety in our national airspace system, and that's 
even more true since September 11th, especially in the 
Washington, DC, area. We obviously focus, in addition, on 
reducing the environmental impacts of aviation on the local 
communities to preserve quality of life.
    On behalf of Administrator Garvey and all of us at FAA, I 
want to explain why I, my neighbors, and others near these 
airports have been affected by increased aircraft noise as a 
result of changes to the flight patterns following September 
11th, and especially at Reagan National Airport, and also share 
our plans that Mr. Moran referred to, the overall airspace 
redesign in the Washington area.
    Communities located near Reagan National Airport clearly 
have concerns about noise, and they have been very patient over 
the last few months as we have focused intently on enhancing 
security procedures at the airport. Now the FAA and several 
other agencies post-September 11th had collaborated on 
improving flight operations procedures, as well as security at 
the airport, and we've arrived at the point where we have many 
unique provisions in place that have helped ensure the improved 
operations.
    The revised arrival and departure procedures that we 
implemented to secure the reopening of National Airport were 
essential to accomplish many of our goals. After the October 
4th reopening of the airport, the consequences included, 
unfortunately, the temporary suspension of many of the noise 
abatement procedures that you are familiar with. Instead of 
following the Potomac River, in brief, pilots were required to 
follow an electronic course that provided straight-out guidance 
from the airport. Similarly, pilots who were arriving at the 
airport would follow this same electronic guidance following a 
straight-in path over some of the communities that you referred 
to in your opening remarks. This occurred for about 10 miles 
distance from the airport.
    In addition to that, pilots operated at very high power 
settings, higher than for the normal abatement procedures, to 
make steeper climb-outs and departures from the Washington 
area. This consequently resulted in more noise.
    However, on April 27th of this year Secretary Mineta 
authorized flights into National Airport to resume the pre-
September 11th patters that we spoke of earlier. Today we are 
progressively restoring the noise abatement procedures that 
were in place and will be again using the river departures and 
arrivals, as well as the throttle-back procedures after 
departure from the airport.
    In addition, Congressman Moran referred to Runway 1533, 
which we have placed back into service about a week ago. In 
fact, I noticed them all weekend as I was in my back yard.
    Obviously, now that aircraft are following the Potomac 
River both to the north and the south of the airport, and as 
they will be increasingly as pilots are trained to go back to 
the throttle-back provisions and use those as they fly along 
the river approach, pilots will be throttling back power 
substantially once they reach 1,500 feet, which is generally 
within about two miles of the airport, and then they will 
continue their noise abatement climbs as they did prior to 
September 11th.
    Just briefly, with regard to the airspace redesign issues, 
we are engaged in redesigning the airspace in the Baltimore/
Washington region. In response to the fact that we've had 
traffic growth, we need additional capacity, and we can bring 
more efficiency and less noise to the community by doing so.
    The last airspace redesign in the Washington/Baltimore area 
was in 1987, and it is now time to bring increased efficiency 
and increased technology to bear. As Congressman Moran alluded 
to, we will combine five TRACONs, or regional air traffic 
control facilities, into one that will be called the Potomac 
TRACON. We plan to open this building near Vent Hill in 
Virginia in December of this year, and it will become fully 
operational next summer in 2003. It will allow controllers to 
more efficiently manage their resources, to communicate, and 
adapt to frequent changes in weather conditions more 
effectively.
    We expect the TRACON will provide many benefits to the 
region, and we are having a number of scoping meetings for the 
draft EIS that's underway, and comments close on that EIS on 
May 23rd.
    We are currently considering in that process three proposed 
airspace redesign concepts for the Washington area, all within 
75 miles of Reagan National Airport. Communities close to the 
airport will not be affected by this airspace redesign, because 
we will continue to use the existing noise abatement departure 
and arrival procedures in and out of the airport.
    The changes will occur where there will be relief for those 
aircraft that are able to fly a greater distance from 
Washington, as Congressman Moran spoke to with regard to 
Andrews Airport, and also aircraft that will be managed at 
higher altitudes for a longer time period to lessen the noise 
impact on the ground.
    Madam Chairwoman, the National Airport situation is 
improving rapidly following the Secretary's announcement on the 
27th, and we at the FAA are looking forward to managing that 
traffic in ways that we did prior to September 11th to minimize 
the impact on the citizens while still maintaining an efficient 
and safe system.
    We'll continue to look forward to the airlines deciding to 
deploy new technology aircraft to those airports that will 
result in lower engine noise and lower takeoff noise, as well.
    And, as I indicated, we'll continue to keep the public 
broadly informed of the actions we're taking to redesign the 
airspace in the area. Over the course of this last month, in 
April we had 10 public meetings to involve citizens in the 
specifics of our design plans and the three alternatives that I 
spoke to.
    That concludes my verbal statement. I'll look forward to 
your questions.
    Mrs. Morella. Thank you very much, Mr. Brown.
    [The prepared statement of Mr. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.014
    
    [GRAPHIC] [TIFF OMITTED] T5722.015
    
    [GRAPHIC] [TIFF OMITTED] T5722.016
    
    [GRAPHIC] [TIFF OMITTED] T5722.017
    
    [GRAPHIC] [TIFF OMITTED] T5722.018
    
    [GRAPHIC] [TIFF OMITTED] T5722.019
    
    Mrs. Morella. I am now pleased to recognize Mr. Wilding.
    Mr. Wilding. Madam Chairman, thank you so very much for 
having us here this morning, also to the other members of the 
committee. We have submitted a statement with detail in it. Let 
me just hit a couple of the highlights.
    First, as to where we are right now, I think it is fair to 
say, in light of what you've already heard this morning, that 
at Washington National all of the post-September 11th 
restrictions that were placed on, and that constrained the 
market, at National and that had to do with putting aside some 
of the old noise abatement provisions, have now fallen away. 
The single exception is the continued ban on general aviation. 
And, as has been indicated this morning, I think we are making 
excellent progress on that, and really within a couple of weeks 
will be where we need to go. So I think we've come all the way 
down that course now and are there, except for general aviation 
which is almost in hand.
    With respect to Dulles, I think that has been a much more 
normal come-back from September 11th, which is similar to other 
airports. We're now running about 92 percent of what we would 
consider normal activity at Dulles, with an absolutely dynamite 
summer international season upon us where we've got lots of new 
service and the bookings are extremely strong. So I think 
things are looking very, very good on that front, as well.
    On the employee front, as you may recall, the employment at 
Washington National was severely impacted by the events of last 
fall and then the relatively slow reopening of National the 
remaining months of last year. At its worst, there were about 
4,500 of Washington National's 10,000 employees out of work. 
That has largely rebounded and that number would be counted in 
the hundreds now, and that's fading very, very quickly.
    At Dulles we had a much milder hit, and again that was 
measured at its worst in the hundreds. Practically all of that 
has now rebounded.
    On the security front, you've heard reference to some of 
the extraordinary security provisions at Washington National, 
mostly those in the air. Again, we've sort of backed away, I 
think, from those that affected noise abatement. We're sort of 
back to the ones that are more normally thought of--the staying 
in your seat 30 minutes and certain air traffic procedures--
that make sure that the folks flying the airplane are the right 
ones.
    Again, I think it is fair to say that security at our 
airports is in very, very good shape and will gradually become 
even in better shape over time as new techniques are brought 
in, but it is significantly tighter than it was last September. 
Again, all of us are committed to working with the new TSA to 
do make sure that our security measures do nothing but get 
better over time.
    On the financial front, we took, as you might imagine, an 
enormous financial hit when one of our two airports was down 
and then stayed down, in large measure, for many months. Three 
things have put us back on a sound financial footing, however: 
No. 1 is the $40 million that the Federal Government helped us 
out with. Again, you all did so very, very much in getting the 
airport reopened. Then, without missing a beat, sort of stepped 
in and made sure that financially it was brought back, as well. 
So we thank you again for all of that help.
    No. 2, we have tightened our budget, our operating budget, 
a great deal.
    And, No. 3, we have reached into our extraordinarily large 
$4.1 billion development program at Dulles and have now put 
certain things aside for a little while and are only pursuing--
I say ``only''--$2.6 billion of that work.
    So the combination of those three things has put us back on 
a very sound financial footing. As a matter of fact, a little 
later in this month we will be back in the bond market to the 
tune of $250 million, which will be the ultimate test of 
whether we have found a sound financial footing. We are 
confident that we have.
    Let me close by simply pointing out that our two airports 
are the sight of 26,000 jobs. There is $6.5 billion of annual 
business done on those two airports, and they generate about 
$730 million in taxes per year at the Federal, State, and local 
level. All of that I dare say seemed like something of an 
abstraction until last September, when all of a sudden that 
economic impact became empty hotel rooms, empty restaurants, 
empty tourist establishments, things like that. All of this has 
now slipped behind us, and we look forward to substantial 
growth at the two airports and development responsibilities 
which will allow us to accommodate that growth. We very much 
look forward to the return of general aviation to Washington 
National, which just completes the picture down there. And, 
very significantly, we look forward to getting back on track 
the so-called ``Part 150'' process, where we are partnered with 
CONANDA and COG to take a very deep look at the noise abatement 
provisions at Washington National. That was something that we 
had just sort of formed a partnership and started into a couple 
of weeks when the events of last September happened. It is a 
process that I think brings all of the right people to the 
right table to thrash out whether what we're doing in noise 
abatement is the best job we can be doing at Washington 
National. We're committed to doing the best job, and I think 
now getting that back on track--which we can do with the 
stability we now have back at Washington National once GA is 
back--we will have a process that all of us can look to and be 
proud of.
    Thanks again so very much for having us.
    Mrs. Morella. Thank you, Mr. Wilding.
    [The prepared statement of Mr. Wilding follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.020
    
    [GRAPHIC] [TIFF OMITTED] T5722.021
    
    [GRAPHIC] [TIFF OMITTED] T5722.022
    
    [GRAPHIC] [TIFF OMITTED] T5722.023
    
    [GRAPHIC] [TIFF OMITTED] T5722.024
    
    [GRAPHIC] [TIFF OMITTED] T5722.025
    
    [GRAPHIC] [TIFF OMITTED] T5722.026
    
    [GRAPHIC] [TIFF OMITTED] T5722.027
    
    [GRAPHIC] [TIFF OMITTED] T5722.028
    
    Mrs. Morella. The three of you who have already testified 
have given a pretty good assessment and prognostication of what 
will happen. Now let us hear from the other partner, Elizabeth 
Haskins.
    Ms. Haskins. Thank you. Madam Chairman, Congresswoman 
Norton, Congressman Moran, and Congresswoman Watson, it is a 
privilege to appear before you today on behalf of the men and 
women of Signature Flight Support and to have the opportunity 
to testify on the future of business aviation at Reagan 
Washington National Airport.
    I'm very encouraged to hear the testimony presented today 
by the Department of Transportation. We met yesterday and went 
through some of the procedures that may happen to reopen 
general aviation. I was quite encouraged by that, although we 
need to be sure that there will be a time certain for 
implementation, but I'm cautiously optimistic.
    I want to take the opportunity at this time to thank the 
Metropolitan Washington Airports Authority, without whom, Mr. 
Moran, you would have been right in your forecast of Washington 
National Signature. We have had rent abatement from Washington 
National Airport, which is part of the $40 million package that 
came from you, and I thank you very much for that. It will keep 
us in business as long as we have a business to reopen.
    We appreciate the continuing interest of Members of 
Congress, particularly those that represent the Washington, DC, 
area and that have continued to make this issue a priority for 
the administration.
    Signature Flight Support is the world's largest fixed-based 
operator and distribution network of business and commercial 
aviation services. We're a fixed-based operator at 42 U.S. 
airports, including the provider of business aviation services 
at Reagan National. As Reagan National's business aviation 
source provider, Signature handled an average of over 175 
operations per day and employed 55 aviation service 
professionals. By the way, we now have 11 on our payroll.
    Signature was the gateway to Washington, DC, metropolitan 
area for thousands of business aviation travelers, including 
Members of Congress, Fortune 500 executives, and public sector 
leaders. With very few exceptions, since September 11th 
Signature's Reagan National facility has been shut down. Reagan 
National's restrictions also are harming other operations where 
the departing traffic is destined for Washington, DC.
    Adoption of a plan for resumption of business aviation is 
urgently needed because of the continuing harm the current ban 
is causing to the business aviation industry and to the economy 
of the Washington, DC, metropolitan area. Frankly, it has been 
disheartening to hear members of the administration proclaim 
full restoration of activities at Reagan National, while 
Signature and the industries that rely on us--the hospitality 
industries--know that this has not been the case. The 
elimination of 60,000 business aviation flights a year is not 
even close to full restoration of service.
    The massive curtailment of operations means not only the 
loss of business aviation industry jobs, but also the loss of a 
major source of income to the D.C. hospitality and 
transportation industries, but the harm to the Nation is not 
just economic. By depriving business aviation of access to 
Reagan National, we sharply restrict citizen access to the 
Government.
    In a letter to President Bush urging the restoration of 
business aviation operations, Virginia Senators Warner and 
Allen said, ``Unless we reopen Reagan National fully, we have 
accepted a significant modification in the way we conduct 
business in the Washington capital area that reduces our access 
and freedom. A permanent reduction in our access to the 
Nation's capital can only be seen as a victory for our enemies 
and a blow to the working people of our economy.'' While some 
see Reagan National's proximity to the capital as a liability, 
we see it as an asset. It is the gateway to our capital.
    Since the restoration of commercial operations less than a 
month after the September 11th attacks, Reagan National has 
stood as a symbol of the Nation's refusal to be intimidated by 
terrorists and of our determination to carry on the Nation's 
business as normally as possible. President Bush expressed this 
well when he announced the restoration of commercial 
operations. He said, ``This is the airport that brings our 
Nation's leaders to Washington to do the people's business. You 
can't win.''
    Signature and the rest of the business aviation community 
share this resolve, but the reality is otherwise until we have 
a truly full restoration of activity at Reagan National. We 
understand the administration's desire to move very cautiously. 
We fear that it may not be fully appreciated that it is an 
urgent situation that business aviation needs to be restored at 
Reagan National. In a few days, our operation will have been 
closed for 8 months with no revenue. We have an attendant 
staff. We paid a portion of the rent for that period of time. 
We have all of the overhead to keep it going. We have to be 
open for government flights that come through, so we can't just 
shut down and avoid the costs. It is important to understand 
this has been a significant impact on Signature Flight Support.
    Finally, the standards for Federal funding of business 
aviation security should be the same as those for commercial 
aviation. Both are equally important matters of national 
security and key elements of our national air transportation 
system. There should be no reason to distinguish the two by 
expending Federal money on one while requiring private funding 
on the other.
    Signature appreciates this committee's focus on this 
important issue, which must be viewed as the single most 
glaring failure to date in our effort to return air 
transportation to normal activity. We hope your interest 
continues throughout the implementation of the TSA's plan to 
reopen general aviation at Reagan National Airport.
    Thank you.
    Mrs. Morella. Thank you, Ms. Haskins. Our interest does 
continue.
    [The prepared statement of Ms. Haskins follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.029
    
    [GRAPHIC] [TIFF OMITTED] T5722.030
    
    [GRAPHIC] [TIFF OMITTED] T5722.031
    
    [GRAPHIC] [TIFF OMITTED] T5722.032
    
    [GRAPHIC] [TIFF OMITTED] T5722.033
    
    Mrs. Morella. Mr. Olcott.
    Mr. Olcott. Thank you, Madam Chair, for holding this very 
important meeting. I am Jack Olcott, the president of the 
National Business Aviation Association. NBAA represents the 
over 7,100 companies that use general aviation aircraft for 
business transportation or are otherwise engaged in what we 
know as ``business aviation.''
    Our members are integral to our Nation's economy, 
generating revenues of approximately $5 trillion annually--
that's about half the gross domestic product--and employing 
over 19 million workers. As companies engaged in the ebb and 
flow of commerce, it is understandable that they have a 
considerable need for transportation. They use general aviation 
aircraft as one of the means for meeting their transportation 
needs, just as they also use the scheduled airlines. In fact, 
NBAA member companies are the world's most active users of 
business aviation, yet they also purchase over $10 billion in 
airline tickets annually. They simply require transportation.
    Our members need access to Reagan National Airport. Last 
year, approximately 2,000 companies, about 90 percent of them 
NBAA members, landed at Reagan National, accounting for the 
vast majority of the approximately 60,000 movements that are 
classified as general aviation at Reagan National, yet nearly 8 
months after the tragedies that occurred on September 11th, 
more than 6 months following the restoration of airline 
service, general aviation still does not have access to Reagan 
National.
    Is that because those responsible for opening Reagan 
National are unaware of the significant role that business 
aviation plays within our Nation's transportation system? 
Business aviation provides access to 10 times the number of 
airports with any scheduled airline service, and over 100 times 
the locations with really convenient schedules. With its 
ability to reach more locations quickly and efficiently, 
business aviation enables a company to maximize the 
productivity of its two most important assets--people and time. 
NBAA members are keenly aware of the value of time, as are the 
shareholders of those companies.
    Is it because those responsible for opening Reagan National 
are unaware of the significant role that users of business 
aviation play in our Nation's economy? Using business aviation, 
our members link rural America with the centers of commerce and 
government. Reagan National open to business aviation is a 
symbol that our Federal Government is open to rural America and 
those in the heartland who contribute significantly to our 
Nation's GDP.
    Is it because those responsible for opening Reagan National 
are unaware of the extremely high levels of security practiced 
by business aviation? Member companies of NBAA have been 
following strict security procedures for decades, not just in 
the months following September 11th. Our community has a highly 
developed culture of security, albeit focused on industrial 
security. Companies carefully examine the background of their 
crews. They know who boards their aircraft. Everyone who 
occupies a seat on a company airplane is well known to either 
the crew or the lead passenger. Aircraft are carefully 
maintained and inspected prior to flight. Business aviation has 
an exemplary record of safety and security.
    A meeting convened yesterday by Dr. Michael Jackson, Deputy 
Secretary of Transportation, and attended by leaders within the 
Transportation Security Administration, truly encourages NBAA. 
I believe other representatives of general aviation 
associations were similarly impressed. DOT and TSA outlined six 
steps that Deputy Secretary Jackson said would form the basis 
of a definitive procedure to be announced by the end of this 
month.
    We were also informed that TSA and DOT would engage the 
general aviation community as final procedures for GA access to 
Reagan National are developed.
    While it remains to be seen how much time will be needed to 
implement the proposed six-step plan once it is made public, we 
trust that Congress, as well as the administration, will move 
expeditiously to open Reagan National to general aviation.
    Thank you very much for your attention. I appreciate the 
opportunity to answer any questions later on.
    Mrs. Morella. Thank you very much, Mr. Olcott.
    [The prepared statement of Mr. Olcott follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.034
    
    [GRAPHIC] [TIFF OMITTED] T5722.035
    
    [GRAPHIC] [TIFF OMITTED] T5722.036
    
    [GRAPHIC] [TIFF OMITTED] T5722.037
    
    [GRAPHIC] [TIFF OMITTED] T5722.038
    
    [GRAPHIC] [TIFF OMITTED] T5722.039
    
    [GRAPHIC] [TIFF OMITTED] T5722.040
    
    [GRAPHIC] [TIFF OMITTED] T5722.041
    
    [GRAPHIC] [TIFF OMITTED] T5722.042
    
    [GRAPHIC] [TIFF OMITTED] T5722.043
    
    [GRAPHIC] [TIFF OMITTED] T5722.044
    
    [GRAPHIC] [TIFF OMITTED] T5722.045
    
    [GRAPHIC] [TIFF OMITTED] T5722.046
    
    [GRAPHIC] [TIFF OMITTED] T5722.047
    
    Mrs. Morella. I'll start the questioning, again trying to 
keep it to 5 minutes so we can go several rounds.
    I think you noticed that we have been joined by Ms. Watson 
from California, a great member of this subcommittee. Welcome.
    I will start off with Ms. Van de Water. You mentioned the 
plan that will be issued, the interim rule for a plan for 
general aviation, which I guess will supersede the SLOA. I 
wondered if you would tell us a little bit more about when you 
plan to release it, to issue it, and how long will that interim 
rule be in effect.
    Ms. Van de Water. What we hope to do is, by the end of this 
month, is to put out the interim final rule, as we call it. At 
that time, we will allow comments on the rule, but while we are 
taking in the comments and assessing them from the TSA 
perspective it will allow the users of the airport to go ahead 
and operate under those procedures.
    As we discussed with the users of the airport yesterday, 
they may have suggestions of improvements or changes in the 
rules, but we didn't want to hold up the whole process pending 
those changes, so we will go ahead and put out what we call an 
``interim final rule,'' allow operations to begin, and then 
perhaps tweak the process as we go through it.
    I believe Deputy Secretary Jackson committed yesterday to 
meeting again in 3 or 4 months with the users of the airports 
to see how the procedures are playing out over time.
    And, as I said in my statement, we do have high hopes of 
getting this wrapped up by the end of May.
    Mrs. Morella. By the end of May? That's a very good date, 
since it is pretty close.
    Ms. Van de Water. It is very close. And this requires 
coordination with other Federal agencies. It's not merely a 
Department of Transportation issue.
    Mrs. Morella. Right. And I was pleased to hear that. I 
think I heard correctly that you had met with general 
aviation--Signature and the Business Aviation Association. But 
did you just meet with them yesterday, or had they been 
involved?
    Ms. Van de Water. No. We've met with them before, and they 
have been working with the TSA.
    Mrs. Morella. So you would agree there was no problem with 
that? The communication was pretty good?
    Ms. Haskins. Yes. The communication has absolutely been 
there. Yes, the communication has been fine.
    Mrs. Morella. Excellent. Excellent. I'm glad to hear that.
    This question is for any of you who would like to answer. 
Why has general aviation been prohibited from using Reagan 
National Airport.
    Ms. Van de Water. Well, the airport has been returned to 
service in phases, and our first priority was returning 
commercial operations. As you know, in early October we allowed 
each of the airlines, the major airlines that had served DCA, 
to choose one or two of their major markets to begin bringing 
traffic in. We instituted a second phase several months later, 
and announced the third phase, which kicked in at the beginning 
of January. It went in over a 3-month period.
    We had additional security procedures put in place at that 
time that allowed--and compliance with those procedures allowed 
the comfort level to grow throughout the Federal Government 
that this was the right thing to do and that these procedures 
could be followed and implemented.
    Then the next natural stop would be general aviation. It 
hasn't been a deliberate desire to keep GA out; it has just 
been a restoration of commercial services first, as we try to 
come to terms with the important security procedures that 
general aviation operators will have to follow before they can 
come into the airport.
    We are all very mindful of exactly how close the airport is 
to critical infrastructure in Washington.
    Mrs. Morella. I commend you, as a matter of fact, for the 
phase-in. I thought that was done in a very logical, reasoned 
way. I'm just curious about what it was that general aviation 
needed to do, perhaps in the area of security, which is what we 
hear about all the time, and what you are asking them to have 
in place to meet the security concerns.
    Ms. Van de Water. We are going to have a very detailed 
procedure in place, and that will be covered in the interim 
final rule that they can then comment on and make suggestions 
and changes to. The key parts will be the vetting of flight 
deck crew members, the submission of passenger manifests in 
advance, the securing of unattended aircraft, the physical 
inspection of aircraft, compliance with air traffic special 
flight procedures, and signed certification agreements with 
their crews.
    Mrs. Morella. Yes. It seemed to me they were willing to do 
this all along, but I guess it's because you had to have the 
rule in place.
    Ms. Van de Water. Yes. We will have to have the rule in 
place.
    Mrs. Morella. And that's what evidently took the time, even 
though many of them were meeting various criteria.
    Ms. Van de Water. We have every confidence they will be 
able to meet the criteria.
    Mrs. Morella. Right. What is the economic impact Ms. 
Haskins on general aviation in the region since the imposition 
of that prohibition?
    Ms. Haskins. Well, the revenue lost by Signature Flight 
Support and then the attendant downstream revenue to sedan 
services and so forth, Signature's revenue loss through the end 
of April has been over $13 million. When you're talking 
billions, it doesn't sound like a lot. When you're talking 
about a company the size of Signature, it's a lot. And the 
interesting factor is the downstream effect--the hotel rooms 
that aren't sold. We sell an awful lot of hotel rooms in 
Washington, DC, particularly the Pentagon area. Also, the sedan 
services, the rental car agencies that our customers use when 
they're coming through Washington Reagan Airport.
    We've estimated--we've gotten some numbers from the 
hospitality industry in trying to get a handle on it. We know 
that it is in excess of $10 million for the 4-months that was 
closed September through December. I'm not positive that number 
is one that you could hang your hat on, but it is in that order 
of magnitude.
    Mrs. Morella. Did general aviation services get any of that 
$40 million?
    Ms. Haskins. In the form--no, we did not directly, but 
Metropolitan Washington Airports Authority met with us as soon 
as they got their money and they abated our rent and they 
refunded rent from September through December, so they actually 
have been very fair.
    Mrs. Morella. Kind of an in-kind benefit. Great.
    Well, thank you. My time has expired.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mrs. Morella.
    I think the best news of the hearing we've already heard 
when Ms. Van de Water testified that there would be an interim 
rule that would allow general aviation to resume and we could 
truthfully say that Reagan National was back to normal. Let me 
ask you and perhaps Mr. Brown, as well--I appreciate your 
testimony on noise. As you know, the curfew went into place 
that was, of course, a part of the whole September 11th 
safeguards. Would you indicate to me what would be the effect--
perhaps you, Mr. Brown, Mr. Wilding--of retaining that curfew. 
What would be the effect on air travel? What would be the 
economic effect if that curfew were retained?
    Mr. Brown. Mr. Wilding could probably give you a much 
better direct economic information than I could, but clearly 
there are a number of flights that prior to September 11th did 
come into the airport after 10 and before 7 or departed before 
7, and so there clearly would be a flight reduction if a 
complete curfew were put into effect, and that, of course, 
would reduce the capacity of the airport to a certain extent 
and would have some economic impact that maybe Jim could 
address.
    It is important to note that, even prior to September 11th, 
aircraft that used the airport during those hours had to be 
substantially quieter than during other hours, and that's an 
important feature that also would return.
    Mr. Wilding. It probably is worth noting, if I could, that 
when the curfew, the hard-and-fast 10 p.m. to 7 a.m. curfew 
went away, what it returned us to was exactly the regime that 
Mr. Brown just talked about. We had a nighttime noise level 
arrangement that after 10 at night and through the night until 
7 in the morning an airplane has to be fairly quiet--a whole 
lot quieter than the so-called ``stage three'' requirements--to 
be able to operate at National, but if it can meet those 
requirements it is free to operate all night long.
    There are a number of airplanes pre-September 11th that 
took off from National in the 6 a.m. hour heading to western 
points in the United States. There is also a clear airline 
practice of sort of sweeping their hubs across the country from 
west to east in the late evening, bringing airplanes into 
national after 10 p.m. Usually by about 11:30, quarter to 
midnight, they're all in. There were about 50 such airplanes a 
day, some in the morning, some in the evening, outside of the 7 
to 10 hours.
    It was our estimation that, unless we got back to our old 
nighttime noise arrangement, that it would be impossible for 
National to get over about 82 or 83 percent of its normal 
operation back in business: That it would have just sort of 
stuck at about that point and just hovered there. So getting 
back to the normal nighttime noise arrangement, it was 
absolutely critical in our mind to getting back to a normal 
National Airport.
    Ms. Norton. Now, how long have those rules about the noise 
levels of planes flying in after 10, before 7:00--how long have 
those rules been in place?
    Mr. Wilding. A very long time. In this form, probably 15 to 
18 years. Going all the way back to the introduction of jets at 
National in the late 1960's there has been some nighttime 
arrangement, but 15 or 18 years ago it settled into the one I 
just described. And I might point out that, as we do the Part 
150, you know, we're taking a look at everything related to 
noise at National Airport. If there are those--and there likely 
are--who think we ought to toughen things up at night, or 
presumably those who think we ought to loosen it up, that's a 
forum in which that can be thrashed out. I fully expect that to 
be one of the issues that's taken through that process.
    Ms. Norton. Now, Mr. Wilding, just as I said to Ms. Van de 
Water, the best news about general aviation came in the opening 
testimony that she gave. I must say that I was heartened by the 
indication in your testimony that you were prepared to look at 
the after-10 hour notions that--the 10 to 7 notions. And the 
reason I asked how long it had been in place is because I think 
that, given the state-of-the-art of everything, certainly air 
travel, anything that we manufacture in this country, to allow 
a rule that was formulated almost 20 years ago to remain in 
place may be one of the reasons that there is so much 
consternation even with that rule today, and so there have been 
an enormous number of complaints and a lot of pressure to keep 
the curfew.
    As I hear you indicate how long this rule has gone 
unexamined, I think that part of the problem is that people 
were living with an antiquated rule and a rule that needed to 
be looked at again.
    You indicate that even before September 11th you were set 
to review noise abatement procedures. In my next round I will 
want to know exactly what you will be looking at and what will 
be your goals, but I see that my time is up. I appreciate your 
testimony.
    Mrs. Morella. I'm sure they'll remember that, too.
    Mr. Moran.
    Mr. Moran. Thank you, Chairwoman Morella.
    I want to ask about general aviation and then the Part 150 
noise abatement process. More than 50,000 business aviation 
flights had made their way through National on a yearly basis. 
The people who use general aviation at National, they don't fit 
the typical profile of recreational flyers. They schedule the 
flights in advance, they use only professional pilots who have 
already been subjected to background checks and security 
clearances. It just seems that it is time that we were able to 
find a way to open general aviation, and I trust Secretary 
Mineta understands how important that is to our economy and to 
the national economy.
    Ms. Van de Water. He absolutely does.
    Mr. Moran. Yes. Well, OK, but they're not open.
    Ms. Van de Water. We expect that they will be shortly.
    Mr. Moran. Yes. OK. I'll take that as a guarantee that will 
occur shortly, and I'm glad to hear it.
    Has Signature Airlines sought any of the $15 billion in 
loan guarantees that the Congress made available which expire 
on June 28th?
    Ms. Haskins. My attorney is sitting behind me saying it is 
not available to us, and I'm not entirely sure I understand 
that.
    Mr. Moran. Why isn't it available?
    Ms. Haskins. I believe it is part of the Young-Mica bill. 
I'm sorry. I'm sorry, there's a misunderstanding. We're not an 
airline. We're an aviation services provider, ground support.
    Mr. Moran. But you were the most adversely affected and now 
that's an omission in the----
    Ms. Haskins. Thank you for recognizing that.
    Mr. Moran. Well, I didn't realize that. Gosh sakes, that's 
a real error in legislation. I guess the airlines, themselves, 
had more influence and wrote the legislation to take care of 
themselves but left that out. That's unfortunate.
    Things have returned to pre-September 11th, with the 
exception of general aviation, and one other exception, and 
that's the 24-hour presence of military aircraft overhead. You 
know, a few of my constituents have said, ``Well, that's the 
price of freedom,'' but they're sort of in the minority. I 
think most people feel that it is a--if this is going to 
continue indefinitely, then it is going to be a problem, and it 
might be a little bit overkill to continue it indefinitely.
    Does anybody on the panel have any idea whether this is 
intended to be permanent?
    [No response.]
    Mr. Moran. Nobody? All right. We'll have to ask the 
Pentagon about that.
    Now, the Part 150 noise compatibility process--as you know, 
this has required the Airport Authority to go through a public 
hearing process, consultation with noise abatement experts, 
etc., etc. It has been put on hold, but there are five aspects 
of it, just very quickly: the slot rule; the perimeter rule; 
the flight plan so that the takeoffs and landings that go five 
miles south or 10 miles north of the airport are supposed to go 
over the Potomac River; the thrust management, which was 
addressed by Mr. Brown; and the nighttime noise restriction.
    I'd like to ask if there are any plans with regard to any 
of those five that are going to better address the noise 
compatibility program which was in process and I trust is going 
to be restarted.
    Let me ask Jim Wilding.
    Mr. Wilding. It certainly will be restarted. It was 
unfortunate, obviously, that it only was a month or 6 weeks old 
when the events of the fall occurred. Clearly the way these 
things are done, is kind of complicated, but you start with a 
baseline of activity that everybody sort of understands and 
then you sort of play ``what if'' on a lot of the variables. 
All of a sudden the baseline disappeared on us in the fall, so 
there was no sense in going ahead with it. Now that the 
baseline is back in focus for us, certainly on the commercial 
side--I'm confident very shortly on the general aviation side--
we've got our baseline back and we can plunge ahead with the 
study.
    It is basically an 18-month-ish effort where most of that 
time is consumed in a good deal of discussion, debate, frankly 
disagreement between all the parties that try to thrash out 
really what is the best way to operate the airport, 
particularly in the noise abatement area.
    So I would point to the last three of your five factors as 
the primary focus and, while I'm sure the slot rule and the 
perimeter rule will also sort of get into the conversation 
because they always do, they tend, in my experience, not to get 
a huge amount of emphasis because there is a feeling that the 
Federal Government has sort of spoken in those areas. And, 
again, they're not excluded from getting in the process, but we 
tend to try to focus more on things we can control a little bit 
more readily.
    Mr. Moran. Senator McCain certainly has, and for the time 
being the Congress has gone along with him, but I understand 
that.
    The one thing I wanted to mention, Madam Chairwoman, I do 
hope that, with the presence of military aircraft on a 24-hour 
basis, the sound that they produce does not preclude our being 
able to monitor the sound attributable to the airport. That's a 
concern that I have, and I would hope that it doesn't just 
shelve everything we're doing in the Part 150 process because 
we've got these military aircraft and they are going to, you 
know, affect our ability too profoundly to be able to monitor 
the sound that is attributable to planes at National.
    I don't want to take more of my time. I'm not going to be 
able to stay much longer, Madam Chairwoman. I do want to thank 
you for having this hearing. Thank you.
    Mrs. Morella. Mr. Moran, we'll also look into the 
definition so that we might try to do something to include 
general aviation as an airline.
    Mr. Moran. Thank you.
    Mrs. Morella. Thank you. Thank you for your contributions. 
I'm pleased to recognize Ms. Watson.
    Ms. Watson. I just have a question to, I guess, Ms. 
Haskins. When will you be able and what would it take to bring 
you back to full support status?
    Ms. Haskins. I was very encouraged by what I heard 
yesterday in a meeting at the Department of Transportation. I 
was afraid that we would be brought back in in some sort of 
phase that would actually make us lose more money than we are 
losing now. That doesn't appear to be the case. What was 
presented yesterday in the plan basically said that anyone that 
wants to and can pass the hurdles can get into Washington 
Reagan from a business aviation standpoint. If that happens, I 
would hope that by summer we're back to our normal status.
    Now, there are going to be some flights that do not make 
it, so I fully expect that we'll have a little bit of a reduced 
business. There will be some charter companies that won't want 
a 48-hour advance, or whatever the criteria is going to be for 
having their passengers cleared, whatever that ends up being, 
so I'm sure that there will be some reduced business, but I'm 
very hopeful that we'll have the majority of our business back.
    Ms. Watson. If I might just continue, what are you putting 
in place to be sure the aircraft that comes in is secured, 
those who pilot the aircraft as well as those who ride?
    Ms. Haskins. That's an excellent question. That's the real 
question related to security for general aviation. It's access 
to the aircraft on the ramp. And what we have done in our other 
locations, when we were reopened after September 11th, we 
reopened with an interim security plan that is still in place. 
What that did was it shut down most of our ramps to 
automobiles. It used to be that people could drive out in their 
limos to their plane and get on the plane. We shut down most of 
our ramps to automobiles. A few of those have been reopened 
with very strict security, identifying the driver getting onto 
the ramp.
    We have had automatic locking doors put in all 42 locations 
on any door that goes out to the ramp. You can't get out unless 
someone behind our counter buzzes you out.
    You can't go out to an aircraft without being escorted, so 
you can't go to someone else's aircraft. We identify the 
aircraft. We give them a random number that is computer 
generated when they come in. It is on a ticket and we keep a 
copy of it on our ticket and when they come in to claim the 
aircraft they show us theirs. It's almost like a ticket for 
laundry. It says that ticket belongs to that aircraft and 
that's the aircraft we'll give you access to.
    So we've put in quite a few procedures to limit the access 
to the aircraft, which is, from our perspective, where any 
danger would lie. Once the flight crews have been cleared and 
once the manifested passengers are cleared, it is all about 
access to the aircraft, in my opinion.
    Ms. Watson. What about the luggage?
    Ms. Haskins. It's an interesting situation. As you know, 
these are privately owned aircraft, and people go hunting and 
they have guns and so forth, and some people are very high 
profile and, in fact, travel with bodyguards that are armed, 
and we talked about that yesterday with the DOT and the TSA, 
and I think we are going to be able to find some way to get 
around that.
    My understanding is--and this is very vague now, but my 
understanding is that we will be clearing some third party. I 
don't know whether it will be the FBO or any airplane destined 
directly into Washington National. The luggage will be hand-
searched and the people will be wanded.
    We are right now--we have a little experience with this. 
The cities of Chicago and Boston, when we reopened after 
September 11th, insisted that they would not let us reopen 
without magnetometers and bag searches, and so we do have some 
experience with this now in those two cities.
    Ms. Watson. Will there be a requirement that the guns, if 
they are accepted on the aircraft, be unloaded and that the 
ammunition be separate?
    Ms. Haskins. I don't know. That's going to be part of the 
DOT rule.
    Ms. Watson. I do hope, Madam Chair, that we inquire about 
that. Ammunition should not be in the guns if they are taken 
aboard and should be carried separately.
    Ms. Van de Water. Ms. Watson, we fully intend to address 
that in the rulemaking.
    Ms. Watson. Thank you.
    I'd like, Madam Chair, some way for us to know just what 
the guidelines are.
    Ms. Van de Water. We'd be happy to share that information 
with you.
    Ms. Watson. Thank you.
    Mrs. Morella. Thank you. Yes, we have asked them to share 
it, and they will. Thank you very much.
    I guess we are going to be called for a vote, but we have 
about 5 more minutes before we need to leave. I'd like to pick 
up again on general aviation and point out that the College 
Park Airport, Potomac Airfield, Washington Executive, Hyde 
Field, all located in Maryland, have been closed since 
September 11th terrorist attack. Limited operations resumed in 
February, and under Special Flight Rule 94, which places 
significant restriction on based pilots and prohibits transient 
operation altogether.
    I'm informed that these restrictions are economically 
devastating to the business community and the businesses at 
those airports. I am curious about when will FAA reopen the DC 
three airports to the transient general aviation traffic. Mr. 
Brown, you're dying to answer this one? Thank you.
    Mr. Brown. Yes, ma'am. I can do that.
    As you stated, we reopened those airports some months ago 
to aircraft that were based at the airport, where it is their 
home base.
    Mrs. Morella. Right.
    Mr. Brown. And that brought back the vast majority of the 
operations of those airports. However, College Park, in 
particular, among the three airports is very dependent to come 
back for their normal economic circumstance on transient or 
visiting aircraft coming into the airport.
    At the time we reopened those three airports, we committed 
after 60 days to go back and evaluate the operating procedures 
and exactly how the security protocols had worked out with our 
other government agencies, both in the defense and security 
agencies. We're in that review period now and we're looking at 
modifications that I think will provide increased access. Not 
unlike National Airport, there will be a security protocol that 
we will work with the Department and TSA and others on.
    I'm hopeful, following that review with all of the 
agencies, the airport management, pilots, and operators, that 
we'll see some modifications.
    Mrs. Morella. That's very encouraging. Again, could you 
give us some idea of a timeline?
    Mr. Brown. We committed, obviously, to undertake the review 
after 60 days. I don't expect that it will take--the review, 
itself, will take any longer than 60 days, so I'd look for 
changes in the summer.
    Mrs. Morella. Changes in the summer? Could be even before 
60 days, couldn't it?
    Mr. Brown. It's possible.
    Mrs. Morella. Yes. OK. Very good. Well, I'm encouraged to 
hear that. I'm certainly encouraged to hear about general 
aviation at Reagan National Airport.
    Let me ask you about the 100 people who were, I guess, our 
examiners or involved with some facet of security at both 
Reagan National Airport and Dulles. I wonder if you might give 
us some explication of how that came about, what it meant, what 
has been done to remedy it.
    Mr. Wilding. I'd be happy to.
    Mrs. Morella. Mr. Wilding.
    Mr. Wilding. There has been some balances struck over time 
between the right of an airport operator as we issue security 
credentials to people to be in sensitive places on airports and 
the rights--some privacy concerns. And over the years, there 
has been sort of a constant balancing of these interests.
    Since the events of last fall, our rights to gain access 
have been liberalized to get deeper into certain Federal data 
bases of criminal history backgrounds and things of that sort.
    Also since last September various U.S. Attorney's Offices 
across the country--most recently here in the Washington area--
have approached airport operators, partnered up with our police 
agencies, and have opened Federal data bases which never before 
have been available to us, particularly Immigration data bases 
and Social Security data bases.
    So what we did was take the little over 20,000 people who 
are credentialed at National and Dulles and ran them through 
these data base, and out popped a little over 100 people who 
either had used phony Social Security numbers and cards to get 
into our system in the first place, or in even more instances 
had an Immigration problem that previously had been masked from 
us. So, together with the U.S. Attorney's Office, the FBI, our 
police, and a bunch of other law enforcement agencies, about 2 
weeks ago we just sort of rounded them all up in 1 day and 
they're off being processed by the U.S. Attorney's Office. That 
was the long and short of what happened there. It has happened 
at other airports across the country, and I presume will happen 
at still others as various U.S. Attorney's Offices decide it is 
worthwhile opening up these other data bases.
    All of this has now set off a dynamic that asks, kind of, 
why weren't the data bases available in the first place? And 
I'm confident there will be some progress on that fairly 
shortly.
    Mrs. Morella. Do you feel that we are now--we have reached 
the point where this will not happen again? I know you said 
there will be some instances where it might, but do we have 
procedures in place like that or to go through the security 
precautions for the people who are at the airports in those 
positions?
    Mr. Wilding. I'm not entirely confident that we do. Our 
access to criminal history checks is now very good.
    Mrs. Morella. OK.
    Mr. Wilding. Our access to these other data bases--Social 
Security and Immigration--that were opened up to us just for 
purposes of this one drill are still not available to us 
consistently. So that if somebody walked through our door this 
afternoon, wanted to be credentialed, we would have access to 
all their criminal history checks, which is a fairly new 
phenomena. We still don't have access to these other data 
bases, but again I think the experience--our most recent 
experience coupled with these other experiences across the 
country, are in the process of persuading people those 
databases should be available to us continually.
    Mrs. Morella. Is it a significant omission to not 
automatically have that done?
    Mr. Wilding. Well----
    Mrs. Morella. Have that data base.
    Mr. Wilding. It is certainly our experience, that if you 
pop over or miss 100 people who had falsified something and 
there's a data base someplace that would have flashed a red 
light to you on that, I would very much like to have access to 
that data base continuously.
    Mrs. Morella. Absolutely. I think it's something that we 
should look into, right?
    I'm going to go vote, and I'm going to let my ranking 
member continue with the questioning in the interest of time. 
Thank you.
    Ms. Norton [assuming Chair]. Thank you, Mrs. Morella.
    Let me ask Ms. Haskins, and perhaps Mr. Olcott, having 
learned that business aviation was not included in the loan 
guarantee bill, let me ask you, if it were included, would any 
use have been made of it? All the airlines have not all rushed 
forward to use the loan guarantees, as you are aware. Would 
they still be useful? Would they have been useful at any point?
    Ms. Haskins. Speaking for Signature and not knowing all of 
the why's and wherefore's and qualifications for the loan 
guarantee, I'm not entirely sure that I know the answer to that 
question. I do know that my brethren in the FBO industry were 
hurt very, very badly by the events in September, particularly 
the independent FBOs.
    As you pointed out, or as Representative Moran pointed out, 
Signature has locations in many areas, many regions of the 
country, and some regions came back before others and, 
thankfully, that sustained us, but the independent FBO with 
one, two, or three FBOs, there are a lot of them that were hurt 
very badly, and I would venture to guess that yes, they would 
have availed themselves.
    Mr. Olcott. Ms. Norton, the general aviation community was 
significantly impacted economically by the events of September 
11th. The Young-Mica bill provides provisions for general 
aviation. There is a disagreement, apparently, between the 
administration and Congress on the viability of that bill and 
the potential support for the bill. But we do believe that it 
is very important to consider the plight of general aviation. 
It's very important to our Nation. Basically, all of aviation 
today depends upon a strong general aviation community, so 
consequently I think it is very appropriate for this committee 
to examine whether general aviation does need some help, and 
perhaps the vehicle would be the Young-Mica bill.
    Ms. Norton. Now, are you saying that general aviation was 
in the Young-Mica bill?
    Mr. Olcott. It is considered in that bill. It wasn't 
considered in the bill that addressed the airlines' needs. So 
general aviation is not entitled to the $5 billion that was----
    Ms. Norton. Yes, that's the bill I'm talking about.
    Mr. Olcott. Yes. The Young-Mica bill has not passed. That's 
just pending. That's just----
    Ms. Norton. I see.
    Mr. Olcott [continuing]. The Young-Mica is to be 
considered. So, consequently, I believe it is something that 
requires some examination. It has not passed at this time. The 
airline bill did pass.
    Ms. Norton. Yes. That's the one that passed. Well, I'm on 
the Transportation Committee. I'd be very interested in looking 
further into these issues through that vehicle, since that is 
the authorizing committee that would be responsible.
    I do want to note what looks like important cooperation--
correct me if I am wrong--between the Transportation agency and 
the industry in coming up with this new set of protocols. I'm 
wondering, Ms. Van de Water or Mr. Brown, whether these very 
special protocols are going to apply to Dulles or to other 
airports, or are we talking about something uniquely for Reagan 
National? And, if so, why?
    Ms. Van de Water. I think we are primarily talking about 
security procedures that are unique to Reagan National. The 
airspace, of course, coming in to DCA is extremely close to 
critical infrastructure in the District and in Virginia.
    Ms. Norton. You know, are there special rules in place for 
general aviation which, of course, is national elsewhere?
    Ms. Van de Water. There are special restrictions in place 
for general aviation nationwide over what is considered secure 
area.
    Ms. Norton. Post-September 11th?
    Ms. Van de Water. Yes.
    Ms. Norton. If you come from general aviation from another 
airport, will there be special procedures for coming into 
National?
    Ms. Van de Water. Yes, there will.
    Ms. Norton. Now, I'm amazed at this, you know. The planes 
that were, in fact, responsible for the tragedy, for the 
outrage, you know, involved airports like LaGuardia and Dulles, 
and I do want to say that, as important as I think it is--and 
justifiably so--to be especially vigilant at Reagan National, I 
am concerned that there has been such an attempt to bend over 
backward here, and then I hear about places like Dulles which 
opened almost immediately, places like LaGuardia where this 
same kind of concern has not been shown. I don't know whether I 
should be afraid, frankly, that there's far less concern in 
other cities who feel that their facilities all around their 
airport are at least as precious as we think ours are.
    I'm just puzzled that we've taken all this time to get up 
to general aviation and we took all this time to open National 
Airport. It was not one of the airports where the devastation 
was launched from. And I still don't understand it, the hyper-
concern here. I mean, it's the same kind of hyper-concern that 
almost got the District of Columbia shut down because the 
initial reaction was to just shut it down, keep it shut.
    So I would have a great interest in knowing how you judge 
the difference between security in the Nation's capital, the 
governmental capital, and security in the financial capital of 
the world, New York City, and why somehow or the other it's 
apparently far less secure there because they were open almost 
immediately, even general aviation, than it is here and what 
that says about what kind of value system you place here as 
opposed to every place else.
    Mr. Brown. Ms. Norton, I'd just like to offer two 
perspectives in terms of what you said. Your first question 
really had to do--do any of these security procedures go beyond 
National Airport, and Read, of course, indicated that there are 
some other airports. But with regard to National and the 
Washington----
    Ms. Norton. Well, these procedures--do these procedures go 
beyond National Airport? Of course you have security procedures 
in other airports. I'm asking do the interim rules about to be 
published here apply to other airports or only to National 
Airport.
    Ms. Van de Water. They will apply only to National Airport, 
just like the commercial operation rules do, but they will 
apply to gateways to National Airport, as do commercial 
operations.
    Ms. Norton. Go ahead, Mr. Brown.
    Mr. Brown. And the last thing is, just as with commercial 
aviation, any aircraft that would divert from National Airport 
for operational or security reasons, there is a security 
protocol where we would direct those aircraft to Dulles 
Airport, and those are arranged with Dulles Airport.
    Ms. Van de Water. And that has happened on several 
occasions for commercial aircraft.
    Ms. Norton. Well, I mean, the harm that has been done to 
National Airport and to commercial--sorry, to business aviation 
has been done. I just want to make sure that in the future we 
look in context at everybody and decide whether or not we're 
just bending over so far backward that more harm is being done 
than good.
    Mr. Wilding, I promised to get back to you on what exactly 
you would be looking for and what would be your goals in 
reviewing the noise abatement procedures, and I would like to 
know: will the interested community be invited to the table 
when you do this review?
    Mr. Wilding. I'm sort of working backward to your 
question--clearly, yes. And the way we decided to go about is 
that there's a huge amount of public participation in one of 
these processes, and this time we decided, as I mentioned 
earlier, to try to partner with our friends at CONANDA to have 
us structure that public participation process so that both of 
us were as comfortable as possible with it, and it was as broad 
as possible.
    It is one of the difficulties, frankly, of dealing with one 
of these processes is it is easy for expectations to get out of 
control on us, and I don't want that to happen. long and the 
short of it is that we have noise abatement provisions at 
National today that represent the balancing of an awful lot of 
interests, but, as you pointed out earlier, some of those 
balances were struck quite some years ago and the facts have 
changed quite substantially. The fleet of airplanes flying at 
Washington National today are quite different than the fleet 
that was flying back when those balances were struck. So the 
idea----
    Ms. Norton. Then that ought to be reflected in the rules.
    Mr. Wilding. Indeed. And so everything gets on the table 
that relates to noise, and the objective at the end of an 18-
month-ish process is to see if we can't arrive at a consensus 
on what the best noise abatement provisions for Washington 
National Airport are. Whether they are the current ones, 
whether they are the current ones slightly modified, or the 
current ones substantially modified, the objective is to get to 
see if we can reach a consensus on what the best noise 
abatement provisions are.
    Ms. Norton. Ms. Haskins, I am very curious about what 
happens to employees of a workplace that is shut down for 8 
months. Are they allowed to go elsewhere within the company to 
work? Are they out of work? Are they on furlough? Can they be 
easily called back to startup again?
    And I'd also like to know from Mr. Olcott if there were 
other companies that were similarly affected which might have 
had a problem simply perhaps holding personnel.
    Ms. Haskins. For about a month after--maybe even 2 months 
after September 11th we were optimistic about getting 
Washington Reagan back open again to general aviation and we 
tried very hard to hold on to the employees. We are lucky in 
that we are a chain and we could redeploy employees, but not 
everybody is redeployable, so we have some Washington Reagan 
employees working right now at Washington Dulles, and hopefully 
they'll move back to Reagan when we reopen.
    We have 11 people of the original crew left on the payroll 
at Reagan National. All of the administrative personnel were 
furloughed. An awful lot of the line staff went out and found 
other jobs, so I'm not entirely sure. We will call back 
everybody from furlough that we can. If they are already re-
employed, obviously we will be hiring from the outside and 
retraining.
    Mr. Olcott. Ms. Norton, the community that we represent 
faced potential dislocation of personnel at the very early days 
following September 11th because there were certain flight 
restrictions that impacted our employees or people who were 
represented by our companies. Those issues were resolved, to a 
large extent because of the excellent cooperation and 
communication between the FAA and the community. We are very 
hopeful that what I consider breakthrough that occurred 
yesterday will lead to the same type of excellent rapport, 
sharing of information, and cooperative pursuit of a viable 
solution between the general aviation community, Department of 
Transportation, and the Transportation Security Administration. 
We're very heartened by what we heard.
    Obviously, the devil is in the details, but we were given 
strong indications that there would be communication between 
the people making those procedures, developing the procedures, 
and the general aviation community so that we can capitalize on 
the knowledge that exists in both the security community and 
the general aviation community.
    Ms. Norton. Thank you.
    I don't know if this is for Ms. Van de Water or Mr. Brown 
or Mr. Wilding. The Chair spoke about the roundup of these 
people who have falsified in one way or the other their 
applications, and I'm quoting now from the ``Washington Post.'' 
None of these people have been associated or implicated with 
terrorism, but, to quote, ``No one was charged in connection 
with a terrorist act. Most were accused of lying on 
applications to work in high-security areas.'' God bless them.
    If you, of course, have lied, you may be a perfectly 
harmless person, but you also may be subject to blackmail in a 
way that would not be the case had you told the truth about who 
you were and other elements of your identity and background.
    I'd like to know what is the state of screening of each and 
every person who works at an airport, not just Reagan National. 
I'm trying now to make sure that Reagan National isn't given 
such priority that it makes it hard to operate and everybody 
else kind of goes about as we get to it. But I'd like to know 
whether the kind of screening that we have been doing on the 
obvious personnel--that is to say, the people who fly the 
planes, like flight attendants and pilots--is being done on who 
the terrorists would be most likely, at least at this point, to 
approach, and that is people in low--below-the-radar-screen 
jobs, people who work in airports who have or could get access 
to the plane or to some part of what occurs on the ground so 
that they could sabotage and do harm.
    Is each and every person who works in an airport being 
screened equally? And are these people being screened equally 
whether they are at Reagan National or at Podunk National?
    Ms. Van de Water. Ms. Norton, the Transportation Security 
Administration is undertaking now procedures for how employees 
of the TSA will be screened with background checks, and by 
``employees of the TSA'' I mean people who do the baggage 
screening, who do the screening of people.
    Ms. Norton. I understand that. I have perfect confidence in 
prospective. You had 140 employees, many of whom have to remain 
in place, would have had to remain in place because you've got 
to make sure somebody is minding the store while you get your 
folks in line, and I'm perfectly satisfied that you understand 
what Congress is indicating you should do prospectively. There 
were 140 employees who were indicted. And 95--an amazing 
percentage--95 of the 140 worked at National and Dulles 
International Airports and they falsified, even though they had 
authority to work in high security areas. So I'm really not 
talking about prospectively. I understand what you're going 
through. I want to know while we're waiting to get the new 
people who shall have been screened in the way the Federal 
Government would do the screening and that airlines and airport 
officials perhaps have not, I want to know if those people are 
being screened in the same way that people who fly airplanes 
are being screened.
    Ms. Van de Water. I believe the airport employees--and 
maybe Mr. Wilding could speak to this somewhat--are now going 
through more intensive screening than they have in the past. 
They are not all screened in the same manner that airline 
flyers are screened. In many ways they are screened much more 
intensely. For a person to fly on a commercial airline, of 
course there is no background check on that person unless the 
person's name has indicated a problem. They would be, of 
course, wanded and their baggage searched and things like that. 
The employees go through----
    Ms. Norton. I'm talking about employees only, Ms. Van de 
Water.
    Ms. Van de Water. You're talking about airline employees 
and airport employees?
    Ms. Norton. I'm talking about employees. You said no 
background check on an employee that----
    Ms. Van de Water. No, no. Not employees. I meant the 
flyers. The employees are going through more extensive 
background checks. I can't tell you that every airport employee 
has gone through that to this point. I can look into that and 
get back to you.
    Ms. Norton. While this hearing has had the effect of, for 
the most part, of putting us at ease, this response has the 
opposite effect. Again, we don't expect the potential 
terrorists to do what he did last time. They'd never followed 
that M.O. in the past. We expect them to look for vulnerable 
parts of the process. It seems to me the first thing I would 
have done would be to look at everybody who had access to an 
airport. Instead, we went looking at the folks who were 
probably never a problem in the first place. So I need to know 
what is going to be done right now about the people who are 
least likely to be considered by us to be a danger and perhaps 
most likely to be considered vulnerable by somebody who would 
do us harm.
    Ms. Van de Water. Ms. Norton, one of my colleagues has just 
informed me that all airport employees who have access to 
sterile areas are undergoing criminal background checks.
    Mr. Wilding. Maybe I can help just a little bit.
    Ms. Norton. I mean, I love that they are undergoing. I love 
that they are undergoing. Somebody thought, ``Hey, wait a 
minute. We'd better start looking at these folks.'' I want to 
know when you will know that the folks who are, as you say, 
authorized to go into sterile areas, are sterile, or whatever 
you want to call them. When will we know that?
    Mr. Wilding. Maybe I could help just a little bit. There 
was a time up until late in the year 2000 when the principal 
way of doing a screening of somebody, an employee--and these 
are Authority employees, airline employees, construction 
workers, anybody that needed to be on sensitive parts of the 
airport. The primary way of finding out about their background 
was a 10-year employment check. You would look back at their 
employment, and only in an instance where there was an 
unexplainable gap in their employment were you then entitled, 
as the issuer of the credential, the airport operator, to 
access their criminal history.
    That was thought by many to be not thorough enough, and by 
the end of the year 2000 that was changed to permit any new 
applicant for a credential to get the full criminal history 
check no matter what his employment looked like.
    That continued to be the case through the events of last 
fall. After the events of last fall, that was then broadened to 
permit you to go back to your existing employee base and run 
all of them through a criminal history check, and that--I think 
every airport in the country is doing that right now. Of 
course, it put a huge load on the FBI resources. And that is 
working its way through the system this year. It has to be done 
by the end of this calendar year, and in most cases I think 
will be done--I know in our case--well before the end of this 
year.
    Ms. Norton. So nationwide end of this calendar year?
    Mr. Wilding. Yes, ma'am. That's criminal history. The 
things that we ran afoul of in the events that you're talking 
about a couple of weeks ago were very few instances of criminal 
history problems, but rather primarily Immigration and Social 
Security problems. That territory is yet to be sort of explored 
in terms of continuous access to that.
    Ms. Norton. I would appreciate, Ms. Van de Water or Mr. 
Brown, if you would provide us with the details on the kind of 
background checks that are being done on people who have access 
to an airport in order to work.
    I do recognize that to do checks on everybody retroactively 
presents enormous problems. I do think that we are far more 
vulnerable there than we are in anything that could happen 
prospectively.
    You know, since I am on the Aviation Subcommittee it is a 
matter, if, in fact, we need to get this job done, to have a 
task force that we provide funds for to get it done and to put 
our minds at ease, then I just think we ought to do that. So if 
you don't have the kind of--see, this hurts us, Mr. Wilding. 
This kind of thing that was in the newspaper, that hurts us. 
That hurts National. That hurts Dulles. That hurts BWI. Nobody 
can have confidence if they find out that almost all these 
employees--not all of them, you know, looks like 75 percent of 
them almost were right here in this area where we're supposed 
to have special care and where we took the greatest pains, and 
that's why I think, ``Let's get it over with for God's sake. 
Let's find out who has been working there and get rid of 
anybody who poses a danger.''
    So I would appreciate the details on who are being 
investigated given to the Chair within 30 days--what the 
priorities are for investigation, if you go priorities through 
employees; what your time tables are--Mr. Wilding says, because 
he is one of the affected airport authorities, that he's got to 
have it by the end of the year. It would, I think, be important 
for the subcommittee to know that.
    Ms. Van de Water. We'd be happy to get that information for 
you.
    Ms. Norton. If resources are an issue, it would be 
important to know that, too, especially if they are an issue in 
terms of reaching the deadline, which I think end of the year 
is still very troubling. I'd appreciate knowing that.
    Could I ask whether the position of the Department remains 
as I have understood it to be of the Department and of 
Secretary Ridge that pilots should not carry loaded guns on 
airplanes?
    Ms. Van de Water. That is the position of the Department 
and the Transportation Security Administration.
    Ms. Norton. Mr. Wilding, what is your view of that?
    Mr. Wilding. I don't consider it my area of expertise, but 
I think these folks in the Department have it right.
    Mrs. Morella. We on the Aviation Subcommittee and on the 
Transportation--overall Transportation Committee have asked for 
a study. We want to look at non-lethal weapons first. We know 
that once you're looking at something like that you get all 
kinds of new state-of-the-art notions coming forward. Mr. Ridge 
has indicated that he did not think it appropriate to carry 
loaded guns. Mr. Mineta has so indicated. And, of course, there 
has been some controversy about that.
    The general public, of course, can only think of the pilot, 
that the pilot should be armed. You, of course, know something 
about airplanes that working within a very cramped space and in 
the middle of chaos, and the pilot is as likely to be shot as 
anybody else when you're trying to get a gun from somebody. So 
I'm very comforted to know that the controversy that began to 
develop has not changed your mind on that issue, because I 
think it was rooted in what you know about airplanes and what 
we do not.
    Are there noise abatement protocols for helicopters, in 
particular? We have perhaps an unusual number in this area. And 
have they been controlled in the same way that business 
aviation has been controlled?
    Mr. Brown. Well, the bulk of the helicopter traffic, 
certainly around Reagan National Airport, is public use, 
government kinds of traffic. It generally follows the river, 
like the commercial carriers do, so in that sense it is an 
abatement process, as well.
    Ms. Norton. So there has been no private helicopter use out 
of Reagan National or out of Dulles?
    Mr. Brown. I think there may have been some public use, but 
not private use that I'm aware of.
    Ms. Norton. Was there private use before at a commercial--
--
    Ms. Van de Water. Yes. Yes, there has been. There have been 
none out of Reagan. I'm not entirely sure about Dulles. We 
would have to check about that.
    Ms. Norton. Mr. Wilding, how does helicopter noise--what 
effect does that have on the noise issues, and will they be 
taken into consideration when you convene the group you have in 
mind?
    Mr. Wilding. They do have an effect and they are taken into 
account. We have a very extensive noise monitoring system 
around both airports. At National it is arrayed up and down the 
Potomac River, and, of course, we capture the data from all of 
the helicopters that fly. It becomes a part of the base of 
data.
    Ms. Norton. Is it a significant factor in noise or not, 
helicopter traffic?
    Mr. Wilding. It is a measurable and noticeable increment.
    Ms. Norton. That seems to say you don't regard it as a 
significant factor.
    Mr. Wilding. Well----
    Ms. Norton. See, when you're looking at noise abatement for 
the first time in almost 20 years, it seems to me you've got to 
put on the table whatever we've got there, because it may be 
insignificant in and of itself, but when you put it along with 
everybody else you could have--we just need to know it. We need 
to know it or else we're not going to be able to do anything 
about it.
    Mr. Wilding. Agreed. And I would like to fuss a little bit 
with the notion that we haven't looked at it in 20 years. It 
has been looked at almost continuously, but it is rare that we 
have one of these ``take a big, deep breath, put the kind of 
resources into it all at one time'' that we'll be doing over 
the next 18 months.
    Ms. Norton. Point taken.
    I'd like to know more about this TRACON effect on noise. 
From a management and safety point of view, from a state-of-
the-art point of view, it certainly does sound like it's the 
next level and the next step. Will it help or hurt the noise 
abatement problem?
    Mr. Brown. Overall, the net effect will be to help the 
noise problem. I don't think it will have a particular impact 
on Reagan National Airport, in particular, because we'll stay 
with the noise abatement procedures we have until there is an 
outcome to the Part 150 process that Mr. Wilding addressed.
    But for the larger area--and the larger area being within 
75 miles of the Washington area--the three alternatives that I 
mentioned that we're looking at for the design, each of them 
would have on a net basis a reduction in the total noise 
experienced by the population on the ground within the 75-mile 
area, which is approximately 10 million people live within that 
area.
    Ms. Norton. Thank you.
    Before I go on, just for the record, Ms. Van de Water and 
Mr. Brown, I'd like to know whether the phasing in of 
commercial--sorry, of business aviation was to take 8 months up 
until now was a deliberate plan and that you are where you 
expected to be, or did you just get to it? The 8 months seems 
like a very long time to have gotten to it. Was it also a part 
of some phase-in plan?
    Let me just give you the background of my concern. You 
know, I represent this city and I have seen that essentially 
what has happened here is that the security people, when they 
got to it, finally released the government people or the 
management people to do what they wanted to do all along. They 
had gotten to their regulations, but again you've got to go 
over a security hurdle who may decide or may not decide, no 
matter what you've done. So I'd like to know why it took 8 
months to get even to the point of an interim rule.
    Ms. Van de Water. Well, Ms. Norton, we have, as I stated 
before, done a phase-in of commercial operations. We did intend 
to complete the phase-in of commercial operations before we 
moved to general aviation operations, as commercial operations 
affect many, many more people flying in and out of DCA.
    I think we do have to very carefully balance, and it is a 
balance that we are continually searching for between policy 
issues and security issues.
    The Congress did set up the Transportation Security 
Administration to assume civil aviation responsibility. The 
Under Secretary does report to Secretary Mineta, and Secretary 
Mineta is personally, as I'm sure you know from your many years 
of working with him, very, very knowledgeable of the policy 
implications of various modes of transportation. He is 
continually seeking that balance between security and policy.
    The TSA has been charged with setting up a huge Federal 
agency in a very short period of time meeting very tough 
guidelines given to it by the Congress for specific standards 
in aviation security, and we at the Department of 
Transportation have been working around the clock to try to do 
just that. I can assure you it is not a deliberate neglect of 
general aviation, it is just a lot of people working very hard, 
7 days a week, to try to handle our new responsibilities.
    Ms. Norton. If it is a matter of personnel, it perhaps is 
understandable. There only are so many people, perhaps. But one 
of my own great criticisms of government is working 
sequentially. Private business never can work sequentially. It 
has got to have everything working at the same time.
    I don't see any reason, unless it was a personnel reason, 
not to have put the interim rule out earlier. These are not 
dependent one on the other. They really are apples and oranges.
    Again, it is true that we did not have a Security 
Administration. We had to start one up and, of course, some of 
the Transportation officials in the Transportation Agency had 
to work that and other things, and perhaps that's 
understandable, but I certainly don't think one thing was 
dependent on another or we had to wait until the other thing 
got phased in. And that has not been the genius, at least of 
American private business. It is you don't work sequentially, 
you work on many fronts at one time. You catch yourself, of 
course. But here I think great damage was done in the way the 
approach was taken.
    Ms. Van de Water. Ms. Norton, I do think the department has 
worked on a great many different fronts all at the same time 
since September 11th. I would be hard pressed to find two 
people, other than Secretary Mineta and Deputy Secretary 
Jackson, who have worked harder to restore transportation to 
where it was before September 11th, and not just in aviation, 
but, as you know, in many other modes as well that also face 
significant challenges.
    I rarely--in fact, I don't think in the whole time I have 
been at the Department of Transportation I have ever arrived at 
the office before Mr. Jackson or left after he did. It is a 
tremendous resource commitment.
    Ms. Norton. You certainly don't have to cite Norm Mineta 
and those at the top of the Department to me. As I indicated, 
if there's a personnel problem, there's a personnel problem. 
The economic damage was done here. It was done here as it was 
done any place else, and you're talking to the Member who 
represents the city that is dependent on an airport that took 6 
and 7 months to open up, where we are still feeling the 
economic effects--the only part of this country that had a 
general aviation shutdown and the part of the country that has 
your Federal presence and a part of the American economy that 
has helped the rest of the economy to go, so yes, we are 
concerned.
    Ms. Van de Water. We are, too.
    Ms. Norton. We are concerned, and, you know, it may well be 
the Congress' fault for not having given the Transportation 
Agency the kind of help it needed to work in a fashion that was 
not sequential.
    Ms. Van de Water. Well, I believe negotiations on the 
supplemental budget request are going on right now.
    Ms. Norton. Well, you will find this Member certainly 
supporting you on that.
    Ms. Van de Water. We appreciate that.
    Ms. Norton. Now, the Chair is back and the Chair will be 
informed that I sure kept it going with questions. [Laughter.]
    In fact, Madam Chair, I think some at the table may be glad 
to see you back. [Laughter.]
    Mrs. Morella [resuming Chair]. Ms. Norton, I've never had 
any doubt about the fact that you would continue to engage them 
in questions. I understand from my chief of staff that you have 
covered some of the other issues I was going to cover--
helicopters, etc.
    I don't think I'm even going to hold the panel any longer, 
but I do want to reiterate what I heard, and that is that we 
will have the interim final rule by the end of the month, which 
means that general aviation will be operating at Reagan 
National Airport, and that it won't be long after that we're 
going to also have operations at the DC three airports. Did you 
ask about that thrust when they take off?
    Ms. Norton. You may want to ask that.
    Mrs. Morella. All right. Good. I had a question that I 
particularly wanted to ask with regard to the deceleration. I 
think you do it currently, the thrust-back, the thrust cut-back 
management procedure. One of the noise abatement procedures 
that was in place before September 11th was the requirement of 
the imposition of thrust cut-back management procedure, where 
power is reduced at 1,500 feet, and I just wonder about why 
have the FAA and the Department of Transportation not allowed 
this procedure to be resumed since operations at Reagan 
National Airport have been allowed to resume normal operations? 
I mean, they are, what, going south but not north?
    Mr. Brown. Yes.
    Mrs. Morella. Yes, thank you, Mr. Brown.
    Mr. Brown. Madam Chairman, you are correct. To your latter 
point, why was that not--why did we not go back to the normal 
noise abatement procedure, the power reduction at 1,500 feet, 
when we first resumed commercial operations, and it is because 
the full-power departure was a part of many of the elements of 
the security protocol that enhanced security at the airport, 
things like strengthening the cockpit doors and air marshals 
and other items that I know you're well familiar with.
    As we've worked with the other agencies of Government and 
as we've added additional security measures since the 
resumption of commercial flights, we've gotten to the point 
where we could resume, taking all of that into account--the 
noise abatement process--so we are doing that. Following 
Secretary Mineta's announcement on the 27th, we have clearly 
had to work with the airlines who needed to do some refresher 
training with the pilots to make sure that we could implement 
this across the board, and that's underway as we speak.
    Mrs. Morella. I'm going to give each of you an opportunity, 
if there's something that Congresswoman Norton did not mention 
or that I did not mention that you would like to in your final 
comments. Please know, too, that our next panel will 
particularly be interested in noise abatement, and there may be 
some questions you can anticipate that they will ask or want to 
ask or present in their testimonies that you might want to 
respond to right now.
    Maybe I'll just go to each of you. Mr. Brown, anything?
    Mr. Brown. No, ma'am.
    Mrs. Morella. Mr. Wilding.
    Mr. Wilding. I would only take the opportunity to thank you 
both again for what you did to get Washington National reopened 
last fall and what you've continued to do to keep the pace of 
its reopening up. It has been absolutely invaluable and very, 
very much appreciated.
    Mrs. Morella. And thank you for your leadership, Mr. 
Wilding. You have always been there were advice and counsel and 
moving ahead in action.
    Ms. Haskins.
    Ms. Haskins. Similarly, I would just like to thank the 
panel very much for having the hearing today and having an 
interest in the general aviation at Reagan National.
    Mrs. Morella. And we will look into that definition, too.
    Mr. Olcott. We've very encouraged by the tone of this 
meeting, and we look forward to a resumption of general 
aviation into Washington National at an appropriate time.
    Mrs. Morella. Very good.
    This has been a splendid panel. Thank you very much. Thank 
you for your patience, too. I know Ms. Norton took care of 
anything I might not have had a chance to ask. So I thank you 
and I'm going to dismiss the first panel. Thank you, Ms. Van de 
Water, Mr. Brown, Mr. Wilding, Ms. Haskins, and Mr. Olcott.
    Barbara Favola, Dave Gries, and Donald MacGlashan--I want 
to thank our second panel for being so patient. It did, 
however, give you an opportunity to listen to the statements 
that they made, and maybe you, like us, had an opportunity to 
learn something from their timelines and statements and meeting 
yesterday, and so we want to continue with that. Could I ask 
you to stand and raise your right hand so I can swear you in?
    [Witnesses sworn.]
    Mrs. Morella. Three panelists have all responded 
affirmatively.
    I do want to welcome you, Ms. Favola, chair of the COG 
Committee on Noise Abatement at both National and Dulles 
Airports; Dave Gries, chair of the Palisades Citizens 
Association Committee on Aircraft Noise; Donald W. MacGlashan, 
board member of CAAN, Incorporated, whom we have been involved 
with over many, many years. Thank you very much for being here.
    I will let you commence with your testimony, Ms. Favola.

  STATEMENTS OF BARBARA FAVOLA, CHAIR, COG COMMITTEE ON NOISE 
ABATEMENT AT NATIONAL AND DULLES AIRPORTS; DAVID GRIES, CHAIR, 
PALISADES CITIZENS ASSOCIATION COMMITTEE ON AIRCRAFT NOISE; AND 
        DONALD W. MACGLASHAN, BOARD MEMBER OF CAAN, INC.

    Ms. Favola. Thank you, Congresswoman Morella. On behalf of 
the Council of Governments, we extend our thanks to you for 
hosting this meeting, and we also thank you, Congresswoman 
Norton, for your efforts in helping us restore Reagan National 
Airport to its full operations. In fact, your entire committee 
has been very helpful in this area.
    Let me go ahead and just briefly explain a little bit about 
the committee I represent. I chair the Committee on Noise 
Abatement at National and Dulles Airports. Sitting on my 
committee are representatives from several local jurisdictions. 
I, myself, am a representative on the local Arlington County 
Board, the local governing body. We also have the Airplane 
Pilots Association represented on our committee and the Air 
Transport Association. We have citizen representatives from all 
of our local jurisdictions. The National Business Association 
and other groups are represented. I'm happy to submit a 
membership list to you.
    Let me go on and just highlight a few of what we consider 
to be effective noise abatement strategies.
    We were delighted, of course, that Reagan National Airport 
resumed operations, and we are also delighted that the river 
route was reinstated, so we thank you very much for your work 
with Secretary Mineta.
    CONANDA has always viewed the visual river procedure as a 
major component in noise mitigation. The river path procedure 
requires airplanes to fly over the Potomac for 10 miles north 
of National and five miles south. When this noise mitigation 
procedure had been held in abeyance, we received increasing 
outcries from communities in Arlington and the District of 
Columbia. Also, we received outcries from citizens in Fairfax 
and Montgomery County and the city of Alexandria. So I cannot 
emphasize enough our pleasure in seeing the river route 
reinstated, and I think that the citizens in the region are 
very grateful for that.
    Another issue that was related to the reopening of Reagan 
National Airport was the nighttime curfew. Post September 11th 
there had been a hard and fast nighttime curfew employed at 
Reagan National Airport. The citizens in the region were very 
pleased with that. As you can see, most people expect and 
really value quiet time in the evening, and this hard and fast 
rule had prevented aircraft flights later than 10 p.m., or 
earlier than 7 a.m.
    As was mentioned earlier by the earlier panel, this policy 
had been in effect--well, a policy prior to September 11th had 
allowed planes to come in during that time period, but they had 
to meet considerably lower noise thresholds, and at the time 
that policy was negotiated between the Council of Governments 
and the Metropolitan Washington Airports Authority, the 
citizens essentially thought that they were getting a hard and 
fast nighttime curfew because we had set the noise level so 
low. Technology has advanced to a point where planes can now 
meet the lower thresholds and come in between 10 p.m. and 7 
a.m. Citizens would like that reexamined, because the homes 
that are very close to the airport still feel some jarring and 
that nighttime period is very disturbing for them.
    The third procedure I'd like to highlight is the thrust 
cutback management procedure, and we appreciate the questions 
that came up on that issue.
    Like the river corridor path, the thrust cut management 
procedure incorporates a power reduction at 1,500 feet, while 
maintaining a climb-out of about 500 feet per minute. Prior to 
today's testimony, we were under the impression that this was 
only used for those flights that were going southbound and they 
were not being used for northbound operations; however, if I 
heard correctly, I believe Mr. Brown said today that they were 
considering reinstating it for northbound, so that would be 
very helpful.
    I also want to reiterate the comments that Congressman 
Moran made earlier about the value of the perimeter rule. We 
view this as helpful not only in noise mitigation, but also in 
air traffic management, because National we view has an airport 
which can handle short-term flights, flights originating within 
the 1,250 miles, and thereby enabling Dulles, which has extra 
capacity, to handle the longer-haul flights, so we really 
viewed it as an effective management tool.
    Looking forward to the future, I'd like to note that COG 
very much supports Congressman James Oberstar's call for an 
Apollo-like investment by the United States and Europe to 
develop a new green engine. We're hopeful that if, in fact, 
enough resources are brought to the table, perhaps this could 
be created within 10 years, and we believe it would 
substantially lower the noise decibel levels that the airplanes 
are currently flying at.
    Last, I would like to note that the Metropolitan Washington 
Airports Authority, Mr. Wilding, who was on the earlier panel, 
mentioned that the Authority is in partnership with COG to 
start the Part 150 study. We had originated this a couple of 
weeks before September 11th, and we are very hopeful that the 
process will again be kicked off, and COG is taking enormous 
steps to ensure there's adequate public participation and all 
the stakeholders will be brought to the table, so we appreciate 
the fact that the Part 150 study was, in fact, noted by this 
committee.
    We continue to appreciate your oversight on noise 
mitigation issues. We understand the Federal Aviation 
Administration has many issues on its plate, and it is 
sometimes difficult to achieve a balance with noise and quality 
of life issues, so the interest of your committee has been very 
helpful, and we encourage your committee to stress to FAA that 
we, in fact, want to make noise as important an element in 
their decisionmaking process as some other factors.
    Once again, I thank you very much for holding this hearing, 
and I look forward to your questions.
    Mrs. Morella. I thank you very much for your excellent 
testimony orally and written testimony, which will be in the 
record.
    [The prepared statement of Ms. Favola follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.048
    
    [GRAPHIC] [TIFF OMITTED] T5722.049
    
    [GRAPHIC] [TIFF OMITTED] T5722.050
    
    [GRAPHIC] [TIFF OMITTED] T5722.051
    
    [GRAPHIC] [TIFF OMITTED] T5722.052
    
    [GRAPHIC] [TIFF OMITTED] T5722.053
    
    Mrs. Morella. David Gries, glad to welcome you here as 
chair of the Palisades Citizen Association Committee on 
Aircraft Noise.
    Mr. Gries. I guess we press first. Thank you, Madam Chair, 
and particular thanks to Ms. Norton and her staff, who have 
lent a sympathetic ear to those of us in the Palisades who are 
gradually going deaf.
    Mrs. Morella. I know some in Montgomery County, too.
    Mr. Gries. I really just want to make three brief points, 
searching for noise mitigation measures that are doable, that 
are practical, and that would allow Reagan National to operate 
at a high level of capacity and benefit the city, but at the 
same time would alter slightly the balance between benefiting 
air traffic--air travelers and those who live under the flight 
paths. So these three points deal with: first, the curfew; 
second, a somewhat complex subject called ``hush kits''; and, 
third, the subject of the altitude of takeoffs and landings.
    First is the curfew. A good bit has been said, so I won't 
dwell on it. I think we all realize that there was no curfew in 
effect before September 11th. There was a curfew briefly in 
effect after September 11th, and we have now returned to the 
former procedures.
    But, as was brought out by Ms. Norton's questioning 10 
minutes ago or so, the fact is that the decibel level 
measurements at the end of the National runway that are used to 
determine whether a plane can land after 7:00--10 p.m., and 
take off before 7 a.m., were put in place many, many years ago, 
and the result of this is, as aircraft engines have become more 
quiet--which is, of course, a blessing--more and more planes 
can meet that threshold and that means that the number of 
planes landing during those hours is increasing very rapidly.
    Second, those planes that do land during that time period 
and do not meet the decibel level requirement at the end of the 
runway are, we think, fined in a very sporadic and perhaps 
haphazard manner. We have the statistics. They're public 
figures. The last month I think that I've seen was August of 
last year 16 planes were fined minimal amounts. If we cannot 
reinstate the curfew--and, of course, that is our wish--we hope 
that these decibel measures can be looked at again, the fines 
can be looked at again, and the procedure for levying the fines 
can be rigidly enforced so that an airline which violates them 
feels the pain. At the moment the fine is so low it is the 
equivalent of another five or six passengers on the plane, so 
it is almost no deterrent at all.
    And, again, the number of planes flying during those hours 
is increasing rapidly, and if nothing is done, Reagan really 
will be a 24-hour airport, and the people that live under the 
flight path will have more and more trouble.
    Let me move to hush kits, this rather obscure term. When 
the Congress passed a major aviation bill back in the 1990's, 
it said that on December 31, 2000, no plane could use Reagan 
National that did not meet the FAA's stage three engine noise 
standard. Unfortunately, in the dark of night an amendment was 
slipped in saying that a stage two engine fitted with what is 
called a hush kit would be allowed to use Reagan National, and 
a good deal of the trouble that people under the flight path 
suffer comes from these hush-kitted aircraft. These are very 
old airplanes--727s, DC-9s, and some early model 737s. They 
have stage two engines which are thunderously noisy. They are 
fitted with some high-technology gear which does mitigate the 
noise level somewhat. And in theory, in ideal weather 
conditions, and probably in the deserts of Arizona and New 
Mexico, they can meet stage three standards, but they don't 
meet them here. We know from observation in the Palisades. We 
can recognize these aircraft, and we know that they are the 
main offenders.
    What we would like to request the committee to do is ask 
for a study from either MR or FAA or both of the feasibility of 
eliminating hush kits from Reagan National. They are not 
suitable for an in-city airport, and their elimination would 
make a great difference.
    My third and final point has to do with altitude. The FAA 
has three recommended altitude points that pilots are requested 
but not required to follow as they come in and out of Reagan 
National to the north. Six miles out they are supposed to be at 
1,800 feet--this is roughly over Delcarlia Reservoir; four 
miles out, 1,200 feet, roughly over Georgetown Reservoir; three 
miles out, 900 feet, roughly over Key Bridge.
    Now, these are recommendations that are in the manuals of 
all the airlines, and what we would like to see happen is for 
these recommendations to become requirements, no longer 
voluntary but required, and with a penalty structure attached 
to them. Of course, there is a radar track on every plane going 
in and out of the airport, so it is quite easy to know which 
airlines are flying below these recommended altitudes.
    Now, again, anecdotal evidence by observation in the 
Palisades area--and I'm sure this is true in part of Ms. 
Favola's area in Arlington and probably south of the airport--a 
good many planes are below these levels. And if you combine a 
plane that is flying below the recommended altitude with a hush 
kit, you have noise which, according to the decibel meters that 
we use in the Palisades, can go as high as 90 decibels, which 
the FAA considers the level that can induce deafness.
    So I think here is a step that can be explored in a 
practical way, would not in any way inhibit the commercial use 
of National nor reduce the frequency of flights, but would 
raise the altitude level of those planes that are violating the 
recommendation and, frankly, would make us very happy in--those 
of us who live under the flight path.
    Let me just close with an observation that I brought back 
from a recent visit to Europe. The FAA ruled long ago that the 
day/night average of aircraft noise in the United States, so 
long as it did not exceed 65 decibels, would be suitable, and 
specifically that means that only 13 percent of the people 
under the flight path at 65 decibels day/night average would be 
seriously inconvenienced. I was very surprised to find in 
Europe that level is 57 decibels, not 65 decibels. Now, since 
these are logarithmic scales, there is a very, very great 
difference between 57 decibels and 65 decibels.
    In inquiring further, I discovered that there are no hush 
kits in Europe. They are against the law. No 727s can fly into 
airports that are close to population centers. No DC-9s can use 
those airports. In short, the Europeans are ahead of us. They, 
of course, have a higher population density around many of 
their airports and they have met that problem in a way that 
would also be suitable in the United States--again a matter 
that the committee might want to look at.
    I thank you for your time.
    Mrs. Morella. I thank you. Thank you for the succinct 
suggestions that you made, Mr. Gries.
    [The prepared statement of Mr. Gries follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.054
    
    [GRAPHIC] [TIFF OMITTED] T5722.055
    
    [GRAPHIC] [TIFF OMITTED] T5722.056
    
    [GRAPHIC] [TIFF OMITTED] T5722.057
    
    [GRAPHIC] [TIFF OMITTED] T5722.058
    
    Mrs. Morella. Now I'm pleased to recognize Donald 
MacGlashan, board member of CAAN--Citizens for the Abatement of 
Airport Noise.
    Mr. MacGlashan. Thank you, Madam Chair. Citizens for the 
Abatement of Aircraft Noise appreciates being invited to 
participate in this hearing and to present its assessment of 
the noise impact on communities due to the emergency procedures 
and to offer some ideas on how to improve the aircraft noise 
situation at Reagan National Airport.
    After the airport was reopened and airport capacity began 
increasing, the emergency procedures of rapid climb-out and 
straight-line course imposed a heavy noise penalty on our 
communities. When the airport capacity reached 77 percent, the 
daytime noise became nearly continuous, and for many people 
there seemed to be no relief. Now, after 8 months, the regular 
noise abatement procedures are supposed to be restored so we 
can return to where we were before September.
    However, the question is: should we? We've had a forced 
experiment in new flight procedures which, although painful for 
some, have given us information and suggested ideas that we 
would have not have learned in normal times. So what did we 
learn? For the first night or two of the curfew, some people 
said it was the first good night's sleep they'd had in a long 
time. However, once the military patrols went into full effect, 
thousands of people found they could not sleep or felt sleep 
deprived much of the time. CAAN received many phone calls and 
e-mails from agitated citizens about the nighttime noise.
    What we have learned is what scientists have been saying 
for the past two decades, that is, that people who cannot get 
sufficient REM sleep are putting their health at risk. The 
intrusion of patrol planes every 10 to 20 minutes has been an 
excellent example of this effect. With the airlines now 
returning to the late evening and 6 to 7 a.m. flights, and with 
the prospects of more nighttime flights, we may well experience 
what we had with the military patrols--a serious sleep 
deprivation problem. Therefore, when one combines the need for 
nighttime security with health benefits, one can see that a 
full curfew is good policy.
    The rapid climb-out procedure has also taught us a lesson. 
CAAN suggested testing this idea to the FAA and the Airports 
Authority 6 years ago. We thought the faster the planes gain 
altitude the less noise people would hear. Our single caveat 
was that stage two hush-kitted aircraft, because of their 
higher noise levels, be excluded from the test.
    Now, as a result of the emergency, we can see that we 
under-estimated the noise from the new stage three aircraft. At 
normal climb powers, close-in residents were still bearing an 
undue noise burden from these so-called ``quiet'' planes. What 
needs to be done is to conduct our suggested test to find a 
less-intrusive climb profile. It may take only a small 
reduction in climb rate, especially if the river course idea 
described below is adopted. The recent Boeing announcement of 
an automated aircraft throttle control for noise abatement 
would directly support this suggestion.
    As for the hush-kitted aircraft, I agree with David that 
all hush-kitted aircraft at National should be banned. Instead, 
we should be using more of the quieter regional jets.
    As part of its emergency procedures, the Government also 
intended to study the use of the Global Positioning System 
[GPS] to narrow the path of the straight-line course. A 
District resident, Mr. Matt Thorp, who may still be here, 
offered a better solution--use GPS, but fly a segmented course 
which approximates the middle of the river rather than a 
straight line. Now that the straight-line course requirement 
has been removed, the idea still offers a good solution for 
noise abatement. Instead of using the 328 radial in bad weather 
or at night when the pilots can't see the river, GPS could be 
used to steer an agreed-upon course at all times, not only to 
the north but also to the south. This would reduce noise for 
all the river communities.
    In conclusion, CAAN thinks there are ways to improve 
security and noise abatement at National if the Government is 
willing to work with the communities to find them.
    Thank you.
    Mrs. Morella. Thank you, Mr. MacGlashan.
    [The prepared statement of Mr. MacGlashan follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.059
    
    [GRAPHIC] [TIFF OMITTED] T5722.060
    
    [GRAPHIC] [TIFF OMITTED] T5722.061
    
    Mrs. Morella. You can tell I'm going to have a vote, but I 
think I will ask a primary question which gets to what each of 
you has reflected in terms of the hush kits, in terms of the 
curfew, the minimum altitude. I'm wondering, as part of the FAA 
150 process, can those issues, particularly the effectiveness 
of hush kits, as well as the minimum altitude, can they be 
examined? Are they part of what is going to be looked at?
    Ms. Favola. I'll take a crack at that. We have the noise 
compatibility study, and the Metropolitan Washington Airports 
Authority has actually hired a consultant. We believe that some 
resources will be available to help analyze the data and to 
coordinate citizen comment and the comments of other 
stakeholders. So the answer to your question is yes, I believe 
that the procedures we've talked about today can be examined in 
the Part 150 process.
    Mrs. Morella. Right. So is there a role that you see for 
this subcommittee to try to urge that it be fully considered, 
or would you like to offer any comments other than--and I note 
that you've mentioned several. You mentioned a GAO study or 
report, but would this not be the appropriate route to take?
    Ms. Favola. That would be--well, it would be helpful if we 
could report back to you on the progress being made with the 
Part 150 study. It would also be helpful if you wanted to send 
a letter to the committee--I am co-chairing the Part 150 
process--indicating your interest in some of these issues and 
asking that the Part 150 Advisory Committee actually consider 
them. I think those steps would be welcome.
    Mr. Gries. Could I just amplify?
    Mrs. Morella. Yes, indeed.
    Mr. Gries. I am the D.C. citizens' representative on the 
Part 150 Committee, and I strongly support what was just said. 
I think a letter from the committee would give us some real 
ammunition on getting some of these things under study and 
dates set for completion of studies and an opportunity then to 
reach some conclusions and make something happen. It would be a 
big help.
    Mrs. Morella. Would you agree, Mr. MacGlashan?
    Mr. MacGlashan. I would agree with that, yes. I also am a 
citizen representative on that Part 150 Committee, so all three 
of us I think will be participating in the actions of that 
committee, and I would concur that, if your committee could 
urge the co-chairs of that committee to make sure that they 
consider these particular points that we've brought up, I think 
it would go a long way to help spur the action on that effort.
    Mrs. Morella. Well, I thank you very much. I know that 
Congresswoman Norton agrees with me and this is what we will 
do. We will draft a letter. If you'd like to draft something 
for us, feel free to do so. If not, we will draft it, in terms 
of asking for full consideration because of the noise and the 
desire to mitigate.
    You know, you may remember, Mr. MacGlashan, not only did we 
meet many times and with CONANDA on this issue, and we even got 
money put into the budget of even NASA to look at noise 
abatement, so this has been a problem that has abounded. And we 
did the same thing with an FAA bill that had to do with 
research and development. It has been around for a long time, 
all of the procedures and what can be done for noise abatement, 
because there is just no doubt that it has an effect on so many 
things, not only traffic but the minds and hearts of people and 
families and all of that.
    So I will go to vote and I'll let you again ask questions, 
and then maybe I'll come back in time--I think it is one vote. 
Ms. Norton is going to ask a few questions. I'll run over and 
vote and try to run back as fast as I can. At the last pause 
when I left we actually had three votes. This time I think I 
only have one, so I'll get some exercise and I'll defer to Ms. 
Norton.
    Ms. Norton [assuming Chair]. Thank you very much, Mrs. 
Morella.
    Yes, I do have several questions. First, I think that Mrs. 
Morella was wise to bring out the way in which the 150 process 
can handle some of these issues, if not most of them; however, 
I thought there was testimony that the hush kits were slipped 
into a provision of this body and are a matter of law. Is that 
correct that the stage three engine standard was a matter of 
law and then somebody slipped into the statute the hush kit 
notion, which then allowed stage two engines, too? And that 
raises the question of whether or not the 150 process can do 
much there.
    Mr. Gries. As I understand it, it all happened at the same 
time. It was a single bill. It prohibited stage two aircraft 
from coming into National, and before the bill actually reached 
the floor an amendment was added in committee that permitted 
these hush-kitted planes to qualify, and then the bill was 
passed.
    Ms. Norton. And then the bill was passed, which means that 
the notion that hush kits are allowed on stage two planes is a 
matter of law. If it is a matter of law, it cannot be changed 
by an administrative process.
    Mr. Gries. That's right.
    Mr. MacGlashan. May I inject just a comment in that regard?
    Ms. Norton. Yes.
    Mr. MacGlashan. There is legal precedent for a jurisdiction 
to eliminate a noise problem from the area. The problem we have 
with Reagan National is the fact that it is owned by the 
Federal Government. And it could still possibly be carried in 
the courts, if you want to take it that far, that the hush-
kitted planes could be eliminated. The Second Circuit Court of 
Appeals in New York eliminated an entire helicopter service 
from Manhattan just on that rule, and so there may well be a 
way to eliminate these hush-kitted airplanes from an individual 
airport.
    Ms. Norton. I'm going to ask my staff to look at the 
provision in law and then look at the 150 process to see 
whether there is a flexibility, rather than--I mean, I'd be 
perfectly willing to put a bill in, particularly since I'm on 
the Aviation Subcommittee. Obviously, it might be easier to do 
it administratively if we could.
    Do you have any idea how many of these stage two planes 
with hush kits are flying around our area?
    Mr. MacGlashan. At the last report I heard, which was about 
3 or 4 weeks ago, that there's about 7.5 percent of the 
aircraft at National that are hush-kitted airplanes.
    Ms. Norton. Say that again? How many?
    Mr. MacGlashan. It's 7.5 percent.
    Ms. Norton. My goodness.
    Mr. MacGlashan. Which seems like a very low number.
    Ms. Norton. Seems like a high number to me.
    Mr. MacGlashan. Does it? OK. Well, just to give you an 
illustration, Minneapolis Airport did a study on this problem 
and they found that with 25 percent of their fleet mix which 
were hush-kitted aircraft it generated 69 percent of the noise 
at the airport. So it gives you an indication of how bad the 
hush-kitted airplanes really are, and if Mr. Wilding were here, 
I think he would agree, because he has commented before that 
yes, they are very bad. Even though they supposedly meet the 
stage three----
    Ms. Norton. Right.
    Mr. MacGlashan [continuing]. Standards, they very, very 
marginally meet those standards, and they had to play some 
tradeoffs in order to get them across the line, so to speak. 
And the reason that the newer-manufactured planes are better is 
because they exceeded the stage three standards by two or three 
dB.
    And there are some people in--even in the scientific world, 
as well as the airport communities, that say, well, an 
individual can't discern a difference in the noise level unless 
it is 10 dB, and I can assure those people I would have no 
trouble distinguishing a hush-kitted airplane from a new 
manufactured stage three airplane, which if there's only three 
dB difference gives lie to what they've been saying about it. 
So there is a difference.
    Ms. Norton. And flying after 10:00?
    Mr. MacGlashan. I wouldn't let them fly at any time.
    Ms. Norton. I'm talking about what are they doing now?
    Mr. Gries. I don't think they can fly out.
    Mr. MacGlashan. No, they can't fly now because they can't 
meet the noise restrictions.
    Ms. Favola. They can't meet the lower noise thresholds.
    Ms. Norton. Ms. Favola, did you have a point you wanted to 
make on that point?
    Ms. Favola. Well, I was just going to say, Congresswoman 
Norton, that you bring out a very good point about what the 
Part 150 process can and cannot do. I view it as a very open 
process where we can make recommendations on a number of 
issues, and those recommendations would have to be reviewed by 
FAA and, of course, we may end up with situations where some 
legislative action would be required, so----
    Ms. Norton. So perhaps we should go through that process 
first?
    Ms. Favola. Well, I do think we should consider it in the 
Part 150 process, absolutely, because we will have all the 
stakeholders at the table, but I'm willing to pursue--if you 
want to put something on a fast track regarding the hush-kitted 
issue, we're certainly willing to work with you on that.
    Ms. Norton. Well, I think we need to lay a predicate on 
this issue of just what they do. If we want them eliminated, it 
seems to me we are going to have to establish what you say with 
your own ears, Mr. MacGlashan, you can establish. We're going 
to have to establish whether these things work. They were 
clearly put in to the law as it was passing through without the 
kind of testimony that would have allowed Congress to make that 
distinction. Now the question is who--you know, I can ask Mrs. 
Morella to work with me, to do it through the GSA. I think you 
indicated the FAA or some existing agency to do it.
    Ms. Favola. Well, the Part 150 process is part of the FAA 
purview, so----
    Ms. Norton. You need to, when you consider this issue, 
indicate to us whether you think an existing Government agency 
should do it or whether we should get an independent evaluation 
through the GAO.
    Could I ask you, now that there has been the reinstatement 
of the river route for takeoff and landing, if you note--if 
there's a notable difference that you can detect now.
    Mr. Gries. I could speak for the Palisades. A different 
group of people are now complaining. The radio beacons that 
were followed during the period immediately after the airport 
opened sent planes over a different part of the community, and 
suddenly people who had not noticed the problem began to 
complain. I think your office heard a lot of those complaints.
    Ms. Norton. But is it status quo ante?
    Mr. Gries. No. This was the procedure followed after the 
airport reopened. Now that we are back to the procedures in 
effect before September 11th, the old group of citizens are 
burdened with the noise and they don't complain as much because 
they've lived with it forever.
    But I might take this opportunity to correct one point I 
think has not been clearly stated. In theory, pilots follow the 
river now on takeoff and landing. In practice, they don't 
follow it, for the most part, on takeoff, and there is a very 
simple technical reason--that is, a modern jet climbs at such a 
rate that the angle of the cockpit window is such that the 
pilot can't see the river, so for the most part they follow one 
of the radio beacons off the end of----
    Ms. Norton. Can the radio beacons see the river?
    Mr. Gries. In general, the beacon most often followed is 
over the river as much as it can be, but since a radio beacon 
is a straight line--it is actually a vector, but it is 
essentially a straight line for at least the first five or six 
miles from the end of the runway.
    Ms. Norton. But, again, this is status quo ante?
    Mr. Gries. This is status quo ante. Yes.
    Mr. MacGlashan. That's why the GPS approach that the 
Government was going to investigate offers an intriguing 
solution to this problem.
    Ms. Norton. Yes.
    Mr. MacGlashan. Because then we could follow the river to 
whatever extent that we want to by using a segmented course, 
and the whole thing could be automated through the autopilot 
and flight management system of the plane.
    Ms. Norton. You indicated that there were fines when the 
decibel levels were exceeded and that happened fairly 
frequently. Why would a pilot exceed the decibel level? I 
didn't understand. Would that be unintentional? Is that 
somebody who doesn't know what he's doing?
    Mr. Gries. You know, I don't know the answer to that, but 
the statistics which were distributed to all of us show a 
certain number of fines each month for aircraft that have 
exceeded the level at the end of the runway after 10 p.m., and 
before 7 a.m., so I assume it is some combination of humidity 
and thrust and--but I don't really know the answer. I really 
don't.
    Mr. MacGlashan. I think the fines are levied against an 
airline who, if it has a plane that does not meet the standards 
for the nighttime restrictions, and if it leaves at 10:01 it is 
apt to get a fine, or if it lands before 7 a.m., the airline 
can receive a fine for doing that. We have witnessed planes out 
in Montgomery County who were sitting there kind of circulating 
because they arrived early at the point where they were going 
to go down from the American Legion Bridge down the river, and 
so they had to sit and circle for 3 or 4 minutes until the time 
ticked over and then they could come in. So the fine structure 
is not based on noise as much as it is the fact that it's the 
wrong kind of airplane to be flying in the nighttime hours.
    Ms. Norton. I would be interested in knowing whether or not 
we have too weak a standard for these so-called ``curfew 
hours.'' Could the average plane today, given the advances and 
the state-of-the-art such as it is, meet those threshold levels 
if they wanted to and fly on in here between 10 and 7:00?
    Ms. Favola. I don't know if the average plane could meet 
it. I'd have to look at exactly what is flying into National 
and get some assessment of whether or not they could meet the 
lower noise thresholds. I do think, though, that there is 
public interest in reexamining those thresholds, because at the 
time the agreement was negotiated it was clearly the 
expectation that planes would not meet it, so the neighbors, in 
effect, were getting a curfew.
    So there's interest in maybe going back and looking at the 
thresholds, and if, as you say, more planes than we expect or 
we would like can actually meet those lower thresholds, maybe 
they are not low enough, or maybe we need to take a different 
approach. But certainly nighttime noise is a major irritant for 
constituents in our greater Washington area, as you well know, 
Congresswoman.
    Mr. MacGlashan. I would add that a given plane, like a 757, 
which has not been allowed back quite yet, can be certified 
because of its weight aspects. It can be certified to be one of 
the planes that can come in and out of National whenever it 
pleases. Other versions of exactly the same plane with a 
different weight certification cannot. So you have a 
combination, depending on what certification that the plane has 
received, and in some cases they are not allowed to operate at 
National, in other cases they are.
    Ms. Norton. It does seem to be everything is going to have 
to be on the table. Is the FAA providing experts to this 
process?
    Mr. MacGlashan. They will tell us what each plane, given 
its weight and characteristics, would generate in terms of 
noise. They supposedly test every single plane, and they come 
out with a document which tells you what the various noise 
levels are for landings and takeoffs and sideline noise.
    Ms. Favola. You're referring to the Part 150 process----
    Ms. Norton. Yes, I am.
    Ms. Favola [continuing]. And if we'll have enough technical 
expertise----
    Ms. Norton. Exactly.
    Ms. Favola [continuing]. To work through these issues? The 
Metropolitan Washington Airports Authority has received an 
airport improvement grant, and through that grant they are 
hiring outside experts to advise the committee. Certainly FAA 
will be a part of this process, but they are not the up-front 
part. They sort of read the recommendations and findings of the 
committee at the end stage.
    Ms. Norton. Well, that's very important to know, that you 
have funds to--because if you want to think outside the box and 
not just, you know, improve on or maybe not improve, frankly, 
by looking at the same configuration, then you're going to have 
to say, ``OK, suppose we were to begin again?'' And then you're 
going to have to think, even if you were to begin again, ``What 
is the state-of-the-art of airplanes?'' You can't take the 
whole industry and turn it upside down in the 150 process. So 
this is going to take a lot of deep thinking, not only on your 
part but deep advice from people who understand everything 
they're supposed to understand because they're experts in the 
state-of-the-art on planes and noise and flying, so it is 
important that you have those funds.
    Ms. Favola. Yes. That point is very well taken, and we will 
not be shy about consulting with you if, in fact, we don't feel 
the resources are being brought to the table on that. So I 
appreciate your comment.
    Ms. Norton. I fought very hard in committee to preserve the 
perimeter rule as it was. Actually, when you consider what was 
on the table, we did pretty well. I mean, it would have just 
blown the thing apart. It took a lot of work. I'm appreciative 
that Bud Shuster, who was the chair of the committee, worked 
very closely with me. But we do have, what is it, 757s? We have 
these planes coming in from Arizona, places all across, quite 
unnecessarily, I think. Perhaps you will remember when Dulles 
was under-used or BWI was under-used, because everybody thought 
if you didn't land at Washington at Reagan National something 
was wrong with you. Maybe you weren't high enough in the 
pecking order. I'm not sure what it was, but everybody had to 
land here. Now, of course, people have recognized that this is 
a region and a very prosperous region and it makes more sense 
to land at Dulles and BWI in many ways, and BWI has done 
marvels in becoming very competitive with National by the way 
it prices its services.
    But we have had some violations of the old perimeter rule, 
and I, frankly, had hoped that after September 11th that's one 
thing that would go. They would say, ``Well, certainly after 
September 11th you don't need to have these big planes flying 
out to the west coast,'' but we still have a few of them that 
do.
    And, of course, as I guess it was Mr. Wilding indicated, 
only Congress can change that. I would be interested, however, 
in knowing what, if any, effects you believe the small changes 
in the perimeter rule have had, particularly with planes flying 
from the west coast or from the far west, what effect those 
planes have had on noise, if any.
    Ms. Favola. Congresswoman Norton, I'd like to provide that 
information for the record. We have such a skewed view now of 
what has happened at National, because we're still all thinking 
of the post-September 11th, and I don't have any information at 
my fingertips that would tell us, you know, sort of what the 
impact of the perimeter rule was pre-September 11th, we were so 
engrossed in the issues that happened after the tragedy. So I 
would be happy to have that information submitted for the 
record.
    Mrs. Morella. Yes, sir?
    Mr. MacGlashan. I was just going to add that, say, for a 
757 that would normally fly not a perimeter but within the 
1,250-mile thing, if you add enough fuel to go to the west 
coast it can add as much as five dB to the noise level.
    Ms. Norton. To arm us in advance, there are always people 
working around the edges of National Airport to find ways to 
get within or beyond the perimeter rule. I hope that in your 
150 process any changes that have occurred as a result of the 
perimeter process can be noted and we can get whatever 
information we can out of that in case we have folks coming at 
us again on that.
    Finally, as I see our Chair has returned, I do want to end 
simply by saying, although I indicated that your process would, 
of course, benefit from outside experts, I cannot help but note 
that you who do not claim to be experts have shown yourselves 
to be extraordinarily knowledgeable--I must say more 
knowledgeable than I certainly was. This committee has learned 
a great deal from your really extraordinarily knowledgeable 
testimony. The notion that citizens have spent this kind of 
time on highly technical aspects of noise abatement and of how 
planes operate has been something to behold. I want to commend 
you on the way you've done your homework.
    I must say to you that on matters like noise the Government 
needs prodding. See, Government doesn't think about noise. 
Government wouldn't do anything about noise if citizens didn't 
make Government do something about noise. The Government thinks 
of efficiency, it thinks about important bureaucratic--I don't 
want to use that word in the pejorative sense--but important 
bureaucratic issues, but noise has to come from you, and you 
have educated us this morning on noise, its effects, and even 
on what might be done to mitigate its effects, so I just want 
to indicate my thanks to the kind of homework you have done and 
the way you have educated this subcommittee, and return the 
chair--I never did take the chair--to our own Chair, Connie 
Morella.
    Mrs. Morella [resuming Chair]. Thank you, Ms. Norton. And 
thank you for your stream of questioning with these wonderful 
witnesses.
    It is true, because what you have done is gone beyond the 
scope of any job, any 9 to 5 job. You've done it because you 
have believed, you've taken time from your family and from 
other activities in which you might engage.
    I will just finally ask you, you have all been involved for 
many years in this. Have you seen advancements? I mean, can you 
note that--I know you've made a difference. Can you see you've 
made a difference? If someone were to say, ``Would you trace 
what has happened with noise mitigation at Reagan National 
Airport and Dulles Airport,'' would you like to try that? Just 
any general comments you might have on that.
    Ms. Favola. I'll take a crack at that.
    Mrs. Morella. Feeling of success, too. Yes.
    Ms. Favola. This whole field seems to move very slowly.
    Mrs. Morella. Yes.
    Ms. Favola. It is very frustrating. And there are a lot of 
players, and it is difficult to gain the necessary consensus to 
get changes through very often. I do think the Metropolitan 
Washington Airports Authority has become more cooperative than 
it had been when I initially started on my CONANDA Committee, 
and I also am thrilled that we finally have Metropolitan 
Washington Airports Authority, with the help of the D.C. 
government, finally did get some airport improvement program 
dollars to actually start the Part 150 study, so I thank you, 
Congresswoman Norton and all of you who may have helped in 
that.
    I really do think that this study will enable us to come up 
with some creative ideas and to be at the leading edge of where 
noise mitigation and quality of life factors can be for regions 
that have an airport, I think progress is coming. We've had 
lots of challenges, and it is hard to point to any one thing, 
but I can feel it, so I'm hopeful 18 months from now we can 
come back and really have something substantial to say.
    Mrs. Morella. You know, we really do seem to be closer than 
ever before in terms of finally getting a continued action that 
would help.
    Mr. Gries, how long have you been involved with the noise 
abatement?
    Mr. Gries. I think it is about 2 years on this committee, 
but I've lived under the flight path for 10. So, in answer to 
Ms. Norton's earlier point, that's why we've learned about this 
subject, because we really have no choice.
    I'd just add one thing very quickly to what Ms. Favola just 
said. The largest changes that have occurred have been because 
of the technology of aircraft engines. For example, some of the 
late model Airbuses that are now using National are quite 
acceptable. Similarly, the late model 737s which are using 
National are more or less acceptable. Our problems are with 
older airplanes. And so, as the industry advances and faces the 
very high costs of operating older airplanes, there will be 
continuing change, but it is very slow.
    Mrs. Morella. Right.
    Mr. MacGlashan, I bet you set the record for veteran status 
and experience.
    Mr. MacGlashan. Maybe it's a dubious record. I don't know. 
I have been involved with it now for 8 years, and----
    Mrs. Morella. It seemed longer.
    Mr. MacGlashan. Well, I guess that goes back to 1994, I 
think it was, that I first took up the hammer to try to make 
some differences.
    As far as what I have seen--and I agree with David here 
that a lot of it has been technology, and when I testified 
before your Technology Committee 5 years ago I said that 
technology got us into this problem and technology is going to 
have to get us out. And I also said I think back at that time 
that we should be using more of the regional jets, and I'm 
happy to hear that USAirways now has at least partially settled 
with their pilots so that they may start using more regional 
jets out of National, and that should help the noise situation 
greatly, I think.
    Mrs. Morella. Yes.
    Mr. MacGlashan. I think what we have to overcome is the 
natural inertia of the aviation industry, itself, who do not 
like to change anything. They get their procedures set down in 
black and white, and then somebody comes along and says, ``You 
must change this type of procedure.'' The Air Line Pilots 
Association rises up and says, ``No, we can't do that. It makes 
that airport non-standard with other airports in the country.'' 
And I'd like to give the pilots a lot more credit for being 
able to handle their airplanes so that they could make 
adjustments for a given airport. No two airports are exactly 
the same in how they are set up, and so these pilots are 
perfectly capable of being able to handle Washington National 
if they are given the proper training. And so I would----
    Mrs. Morella. And flexibility.
    Mr. MacGlashan. Pardon?
    Mrs. Morella. And flexibility.
    Mr. MacGlashan. And flexibility. Yes. Exactly.
    Mrs. Morella. Yes.
    Mr. MacGlashan. So that's--and I agree with Ms. Favola that 
the progress is very, very slow. But I think because of citizen 
groups around the country keep the pressure on all the time, it 
sort of helps drive the authorities to take hold and look at 
the problem.
    Mrs. Morella. Well, actually, you just wouldn't have--you'd 
have very few changes taking place if you didn't have a voice, 
and you represent a lot of people.
    Mr. MacGlashan. That's right.
    Mrs. Morella. And I hope that's some encouragement to you, 
that you are the ones that make participatory democracy really 
work on behalf of a lot of others who don't have the time or 
don't feel they have the power to give to it. So I thank you 
very much for that. I remember when we used to count how many 
planes violated the slot rules, and I guess that will come back 
again, too, so you've all been there for a long time.
    I thank you. I know that Ms. Norton will fill me in if 
there is something I've missed, and my staff will fill me in, 
but we will write that letter on behalf of the 150.
    And so now again I thank you, Ms. Favola, Mr. Gries, Mr. 
MacGlashan, and I'm going to adjourn the meeting of this 
subcommittee. Thank you for your patience with my coming and 
going. I know Ms. Norton handled it beautifully.
    I want to acknowledge Russell Smith, my staff director; and 
Shalley Kim, staff assistant, who has been recording this; Rob 
White, communications director; Matt Batt, legislative 
assistant; Heea Vazirani-Fales; John Bouker, who is the counsel 
on the minority side; Jean Gosa, deputy clerk on minority side; 
and thank our recorder, Mary Ross, for the wonderful work that 
she does.
    The meeting is adjourned.
    [Whereupon, at 2:04 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [The prepared statement of Hon. Thomas M. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5722.062
    
    [GRAPHIC] [TIFF OMITTED] T5722.063
    

</pre></body></html>
